                 

                 

                      U.S. ENVIRONMENTAL PROTECTION AGENCY 

                      OFFICE OF INSPECTOR GENERAL 




                      EPA’s Review of
                      Applications for a Water
                      Research Grant Did Not
                      Follow All Review
                      Procedures and Lacked
                      Transparency
                      Report No. 12-P-0864              September 25, 2012




Scan this
     this mobile
code to learn more
about the EPA
          EPA OI
               OIG.
Report Contributors:                               Rick Beusse
                                                   Rich Jones
                                                   Andrew Lavenburg
                                                   Rebecca Matichuk
                                                   Michael Young




Abbreviations

ASD           Applied Science Division
C.F.R         Code of Federal Regulations
EMS           Extramural Management Specialist
EPA           U.S. Environmental Protection Agency
FOIA          Freedom of Information Act
GCA           Grants Competition Advocate
NCER          National Center for Environmental Research
NRC           National Research Council of the National Academies
OGC           Office of General Counsel
OGD           Office of Grants and Debarment
OIG           Office of Inspector General
OMB           Office of Management and Budget
ORD           Office of Research and Development
PRD           Peer Review Division
RFA           Request for Applications
SRA           Science Review Administrator
STAR          Science to Achieve Results




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               12-P-0864
                                                                                                     September 25, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA’s Review of Applications for a Water Research
Based on a request from the         Grant Did Not Follow All Review Procedures and
U.S. Environmental Protection       Lacked Transparency
Agency (EPA) Assistant
Administrator for the Office of      What We Found
Research and Development
(ORD), we examined EPA’s            NCER did not follow all applicable policies and procedures in reviewing
review process for Science to       applications submitted under RFA EPA-G2009-STAR-F1, and lacked procedures
Achieve Results (STAR) grant        for a key aspect of its STAR grant application peer review process. Specifically:
Request for Applications (RFA)
EPA-G2009-STAR-F1,                   	 NCER did not follow the review process required by the Code of Federal
“Advancing Public Health                Regulations (C.F.R) under 40 C.F.R Part 40.150. EPA subsequently issued
Protection through Water                a class exception from 40 C.F.R 40.150 that retroactively applied to the
Infrastructure Sustainability.”         process for this and other RFAs, but NCER did not make this known to the
We sought to determine                  public.
whether EPA followed                 	 For more than half of the 72 applications reviewed during each peer review,
applicable policies and                 at least one of the three assigned peer reviewers did not provide written
procedures, and communicated            comments addressing each evaluation criterion as required.
with applicants appropriately.       	 NCER did not have a clearly defined “firewall” policy for its peer review
ORD’s National Center for               process. The process used to select reviewers for the June 2010 review, in
Environmental Research’s                our view, was inconsistent with descriptions of NCER’s firewall practice
(NCER’s) STAR grant program             published in 2002 and 2003 National Academies reports.
funds research through a
competitive solicitation process    NCER did not communicate with all applicants for the RFA in a transparent,
and independent peer review.        appropriate, accurate, and timely manner. For example, NCER was not
For the RFA reviewed, NCER          transparent in communicating its decision to conduct a second review, the
conducted two peer reviews.         expected delays resulting from the second review, and whether the results sent
NCER voided results of a            to applicants were based on the December 2009 or June 2010 review. NCER’s
December 2009 peer review           declination letters did not sufficiently explain why applicants were not selected or
panel due to concerns over          inform them of the option to request a debriefing. NCER informally communicated
expertise and innovativeness,       results to some applicants prior to final selection decisions.
and completed a second peer
review in June 2010.                The issues noted stemmed from a lack of program procedures and management
                                    controls, resulting in delays and additional costs for NCER to review applications
This report addresses the           for the RFA. In addition, the control weaknesses identified could also harm the
following EPA Goal or               reputation of EPA’s STAR program that has been characterized in the past as a
Cross-Cutting Strategy:             program with an independent, rigorous process that funds high-quality research.
 Advancing science, research,
  and technological innovation       Recommendations and Planned Agency Corrective Actions
                                    We recommend that the Assistant Administrator for Research and Development
For further information, contact    ensure that NCER makes the public aware of its class exception from 40 C.F.R
our Office of Congressional and
                                    40.150, establishes and adheres to improved procedures and management
Public Affairs at (202) 566-2391.
                                    controls for administering the STAR grant program, and improves its guidance
The full report is at:              and management controls for communicating with grant applicants. The Agency
www.epa.gov/oig/reports/2012/       agreed with our conclusions and agreed with the intent of our recommendations.
20120925-12-P-0864.pdf              Planned corrective actions will be addressed in the Agency’s 90-day response.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON,
                                    WASHINGTON, D.C.
                                                D.C. 20460
                                                     20460



                                                                                THE INSPECTOR GENERAL




                                       September 25, 2012

MEMORANDUM

SUBJECT:	 EPA’s Review of Applications for a Water Research Grant Did Not Follow
          All Review Procedures and Lacked Transparency
          Report No. 12-P-0864


FROM:	         Arthur A. Elkins, Jr.

TO:	           Lek Kadeli
               Acting Assistant Administrator for Research and Development


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or
copper.carolyn@epa.gov; or Rick Beusse, Director for Air and Research Evaluations, at
(919) 541-5747 or beusse.rick@epa.gov.
EPA’s Review of Applications for a Water Research Grant                                                                     12-P-0864
Did Not Follow All Review Procedures and Lacked Transparency


                                  Table of Contents 

Chapters
   1	   Introduction ........................................................................................................      1

                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology ..............................................................................               5     


   2	   NCER Needs Additional Procedures and Management Controls 

        to Ensure Independent Review Process ..........................................................                            6

                NCER Did Not Comply With 40 C.F.R 40.150 for RFA
                   But Subsequently Received an Exception from OGD ...........................                                     6

                Peer Reviewer Comments Did Not Consistently Address
                   Evaluation Criteria Specified in RFA .....................................................                      8

                Lack of Clearly Defined “Firewall” Policy Presents Risk to Integrity
                    and Independence of STAR Grant Peer Review Process ....................                                        9

                Impact of Project Officer Concerns on Peer Review Results
                   Points to Management Control Weakness ............................................                             13 

                Concerns Cited in Support of NCER Management Decision
                   to Void the December 2009 Peer Review Not Valid..............................                                  14 

                NCER’s STAR Grant Review Process Needs Improved
                   Management Controls ...........................................................................                15 

                NCER’s Decision to Void the December 2009 Peer Review
                   Resulted in Delays and Additional Costs ...............................................                        16 

                Conclusions.................................................................................................      16         

                Recommendations ......................................................................................            16         

                Agency Comments and OIG Evaluation ......................................................                         17 


   3	   Improved Program Guidance, Management Controls Can 

        Aid NCER’s Communications With Applicants ...............................................                                 19

                NCER Not Transparent in Communicating Decision to Conduct
                   Second Review for RFA ........................................................................                 19 

                NCER’s Formal Communication With All Grant Applicants
                   Did Not Adhere to Agency Policy, Guidance, and Guidelines ...............                                      21 

                NCER’s Informal Communication With Applicants Presented
                   Risk of Providing Applicants With Inaccurate Information .....................                                 24 

                Inaccurate Contact Information Provided to Applicants Had Potential
                    to Impact Deadlines, But Did Not Impact Applications for RFA .............                                    25 

                NCER Did Not Communicate Peer Review Results to Applicants in a
                    Timely Manner for RFA .........................................................................               25 

                Process for Communicating With Grant Applicants Not
                   Well Defined by Agency Policy and Guidance ......................................                              26 

                Conclusions.................................................................................................      27         

                Recommendation ........................................................................................           27         

                Agency Comments and OIG Evaluation ......................................................                         27 



                                                          -continued-
EPA’s Review of Applications for a Water Research Grant                                                                    12-P-0864
Did Not Follow All Review Procedures and Lacked Transparency


   Status of Recommendations and Potential Monetary Benefits..............................                                       29 




Appendices
   A    Key Positions With Oversight Responsibilities and 

        Accountability for RFA EPA-G2009-STAR-F1..................................................                               30


   B    Timeline of Events for Activities That Occurred During 

        RFA EPA-G2009-STAR-F1 .................................................................................                  31


   C    Detailed Scope and Methodology.....................................................................                      33


   D    Evaluation Criteria and Peer Reviewer Written Comments............................                                       36 


   E    Agency Comments to Draft Report and OIG Response .................................                                       38 


   F    Distribution .........................................................................................................   51

                                             Chapter 1

                                             Introduction
Purpose
                  In a February 7, 2011, letter to the Inspector General, the U.S. Environmental
                  Protection Agency’s (EPA’s) Assistant Administrator for Research and
                  Development stated that EPA’s Office of Research and Development (ORD) had
                  received a letter from a grant applicant expressing concerns with the peer review
                  process for a specific grant. The grant was a Science to Achieve Results (STAR)
                  grant with a Request for Applications (RFA) titled “Advancing Public Health
                  Protection through Water Infrastructure Sustainability” (RFA EPA-G2009-STAR-
                  F1).1 The Assistant Administrator requested that the Office of Inspector General
                  (OIG) independently assess and determine the validity of the concerns raised by
                  the applicant and recommend any necessary actions. Based on the request, we
                  conducted an evaluation to determine whether ORD:

                      	 Followed applicable federal and EPA policies and procedures in managing
                         the technical peer review panel process for grant proposals submitted
                         under RFA EPA-G2009-STAR-F1
                      	 Communicated with grant applicants for RFA EPA-G2009-STAR-F1 in
                         an accurate, timely, appropriate, and transparent manner regarding the
                         status of their proposals

Background
                  The STAR program of ORD’s National Center for Environmental Research
                  (NCER) funds research grants and graduate fellowships in numerous
                  environmental science and engineering disciplines through a competitive
                  solicitation process and independent peer review. The program engages scientists
                  and engineers in targeted research that complements EPA’s intramural research
                  program and those of its partners in other federal agencies.

                  STAR research is funded through RFAs that are derived from the ORD Strategic
                  Plan and from research plans for specific topics developed by ORD. RFAs are
                  prepared in cooperation with other parts of the Agency and concentrate on areas
1
  The RFA offered funding for regular as well as “early career” projects. Early career funding was intended for
applicants at the assistant professor level (or equivalent) who held a doctorate degree, were untenured at the closing
of the RFA, and employed in a tenure-track position by the award date. The funding opportunities were designated
as EPA-G2009-STAR-F1 for the regular funding opportunity and EPA-G2009-STAR-F2 for the early career
funding opportunity. Both funding opportunities were announced simultaneously, targeted the same research area
(advancing public health protection through water infrastructure sustainability), and were similarly managed by
NCER. As such, we evaluated NCER’s management of these funding opportunities as one. References to RFA EPA-
G2009-STAR-F1 in this report also include the early career opportunity (i.e., RFA-EPA-G2009-STAR-F2).  


12-P-0864                                                                                                           1
                  of special significance to the EPA mission. Once applications are received by the
                  Agency in response to an RFA, NCER conducts a multi-stage review process to
                  determine which applications it will recommend for funding. According to EPA,
                  STAR research is currently focusing on the health effects of particulate matter,
                  drinking water, water quality, global change, ecosystem assessment and
                  restoration, human health risk assessment, endocrine disrupting chemicals,
                  pollution prevention and new technologies, children’s health, and socio-economic
                  research.

                  Overview of STAR Grant Review Process

                  NCER’s STAR grant application review process consists of multiple steps.2 After
                  the eligibility of each application is reviewed, the main review steps are:

                       	 An external peer review organized and managed by NCER’s Peer
                          Review Division (PRD). The external peer review (hereinafter referred to
                          simply as “peer review”) is designed to evaluate each application
                          according to its scientific merit and the evaluation criteria specified in the
                          RFA. All eligible3 grant applications are reviewed by a peer review panel
                          comprised of non-EPA experts (selected and managed by PRD) who are
                          accomplished in their respective disciplines and proficient in the technical
                          subjects they are reviewing. The peer review panel scores all applications.

                       	 A programmatic review organized and managed by the project officer
                          for the RFA. All applications receiving scores of “excellent” or “very
                          good” as a result of the peer review process receive a programmatic
                          review. This programmatic review is conducted by technical experts from
                          within EPA, including individuals from ORD and EPA program and
                          regional offices involved with the science or engineering proposed. The
                          programmatic review panel assesses the relevance of the proposed science
                          to EPA’s research priorities and the proposed Lead Principal
                          Investigator’s past performance and reporting history.

                       	 A decision meeting to formalize NCER’s funding recommendations.
                          In the decision meeting, the NCER Director makes final funding decisions
                          based on the results of the external peer review, the internal programmatic
                          review, and other information as identified in the terms of the RFA (e.g.,
                          program balance and available funds). The decision meeting is supported
                          by a proposed decision memorandum drafted by the project officer and
2
  According to NCER, the STAR grant award process consists of 10 steps that take about 17 months to complete. 

These steps include preparation and certification of the RFA, eligibility screening of applications received, and the

review processes identified above. EPA’s Grants and Interagency Agreement Management Division also reviews 

final recommended awards.  

3
  RFA EPA-G2009-STAR-F1 defined “eligible applicants” as public and private nonprofit institutions/organizations

located in the United States, state and local governments, federally recognized Indian tribal governments, and U.S. 

territories or possessions. Profit-making firms, federal agencies, and national laboratories funded by federal agencies 

were not eligible applicants for this RFA.
 


12-P-0864                                                                                                             2
                         circulated to applicable NCER personnel prior to the decision meeting.
                         Once final funding recommendations are made, the decision memorandum
                         is signed by the NCER Director. NCER staff who attend the decision
                         meeting include the Chief of Staff, Senior Science Advisor, the project
                         officer, the project officer’s supervisor, and either the PRD Director or the
                         Science Review Administrator (SRA) for the RFA, according to the
                         NCER Director.

                The National Research Council of the National Academies (NRC) evaluated
                EPA’s STAR grant program and published a report4 of its findings in 2003. NRC
                concluded that the STAR program had established and maintained a high degree
                of scientific excellence, providing the Agency access to independent information
                by funding research through broadly advertised, competitive grants. NRC
                concluded that the STAR grant award process compared favorably with, and in
                some ways exceeded, the process used at other agencies that have extramural
                research programs. In particular, NRC noted that EPA had established a rigorous
                peer review process for its STAR program. A key factor cited by NRC in support
                of this conclusion was a “firewall” practice used by NCER. A key component of
                this firewall was its shielding of the peer review process from the influence of
                EPA project officers and staff who oversee the individual investigator, fellowship,
                and center awards. Thus, according to NRC, the Agency had taken effective steps
                to ensure that the STAR grant application review process did not suffer from
                conflicts of interest and was independent.

                STAR Grant RFA EPA-G2009-STAR-F1

                In May 2009, EPA opened RFA EPA-G2009-STAR-F1. EPA’s announcement
                requested research project proposals that focused on improving the effectiveness
                of the water infrastructure for protecting public health. The RFA asked for
                projects that demonstrated an integrated, multi-disciplinary approach that would
                lead to advances in design, operation, and management of the water infrastructure,
                and that directly tied those advances to public health protection in conjunction
                with improving water efficiency and reducing energy requirements. The RFA also
                identified and described the stages of the application review process, which are
                outlined above (i.e., peer review, programmatic review, and funding decision).
                According to the RFA, EPA had about $6 million to fund approximately eight
                regular awards and four early career awards. Appendix A includes a summary of
                the roles and responsibilities of key personnel at each phase of the review process
                for this RFA.

                For this particular RFA, NCER conducted a peer review of 72 applications in
                December 2009; 11 of these applications received a passing score (i.e., were rated
                either “excellent” or “very good”). NCER conducted an internal programmatic

4
 The Measure of STAR: Review of the U.S. Environmental Protection Agency’s Science to Achieve Results (STAR)
Research Grants Program. Committee to Review EPA’s Research Grants Program, National Research Council.
National Academies Press. 2003. 


12-P-0864                                                                                                      3
            review in January 2010 of the 11 applications that had passed the December 2009
            peer review, and then had a decision meeting scheduled for February 2010 to
            discuss 9 applications that were recommended for funding.

            Around the time that the February 2010 decision meeting was scheduled to take
            place, the NCER Director decided that a new peer review was needed based on
            concerns expressed by the Applied Science Division (ASD) Director and the
            project officer responsible for overseeing this RFA. NCER voided the results of
            the December 2009 peer review panel and subjected all 72 applications to a
            second peer review in June 2010. The June 2010 peer review resulted in 34
            applications with a passing score; ultimately, 8 applications were selected for
            funding in August 2010. The decision to change the review process was not
            communicated to all applicants. Appendix B provides a timeline of events for
            RFA EPA-G2009-STAR-F1.

            Concerns Expressed by Applicant About NCER’s Review Process for
            RFA EPA-G2009-STAR-F1

            On August 10, 2010, a grant applicant submitted a letter to EPA’s Assistant
            Administrator for Research and Development expressing concerns about the
            review process for RFA EPA-G2009-STAR-F1. The applicant had received
            notice from EPA in December 2009 that their proposal had passed the December
            2009 peer review and that the application had been forwarded for programmatic
            review. In May 2010, the applicant tried to contact the project officer to check on
            the status of the review process, but was unsuccessful. In June 2010, the applicant
            was informed by the project officer via telephone that the December 2009 peer
            review results had been voided and that a second peer review had been conducted.
            The applicant’s proposal had not passed the second peer review. The applicant’s
            August 2010 letter to the Assistant Administrator for Research and Development
            alleged that:

                  NCER’s actions had the appearance that the first scientific and technical
                   review of proposals submitted under RFA EPA-G2009-STAR-F1 was
                   “… ‘voided’ ex post facto, because some parties to the decision did not
                   like the result.”
                  NCER staff did not act in a timely and transparent manner in informing
                   applicants of the status of their proposals.

            The concerns noted in the applicant’s August 2010 letter prompted the Assistant
            Administrator’s request for OIG to examine NCER’s review and communication
            processes for RFA EPA-G2009-STAR-F1.




12-P-0864                                                                                      4
Scope and Methodology
            We conducted our work at ORD, NCER, in the Washington, DC, area. As part of
            our evaluation, we reviewed:

                  Applicable EPA, Office of Management and Budget (OMB), and other
                   federal policies, procedures, and guidance
                  STAR grant budget and expense data and other documentation specific to
                   RFA EPA-G2009-STAR-F1
                  Correspondence among ORD and STAR grant applicants for RFA
                   EPA-G2009-STAR-F1

            Additionally, we interviewed EPA personnel, grant applicants, and peer review
            panel members to obtain an understanding of the process used to review grant
            applications and to communicate with applicants. We analyzed the data we
            obtained against criteria established in the guidance, policy, regulation, and
            external evaluations we determined to be applicable to NCER’s grant review and
            communication process.

            We conducted our field work from March 2011 to June 2012. We conducted this
            evaluation in accordance with generally accepted government auditing standards.
            Those standards require that we obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our evaluation
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            Appendix C provides a detailed description of our scope and methodology.




12-P-0864                                                                                    5
                                 Chapter 2

NCER Needs Additional Procedures and Management 

  Controls to Ensure Independent Review Process 

            NCER did not follow all policies and procedures applicable to its STAR grant
            review process, and lacked internal procedures and management controls
            necessary to ensure an independent review process. The management control
            weaknesses we identified during our review resulted in delays and additional
            costs for NCER to review applications for RFA EPA-G2009-STAR-F1. These
            weaknesses may also impact other RFAs and potentially harm the reputation of
            EPA’s STAR grant program as a program with an independent and rigorous
            process that funds high-quality research. Regarding NCER’s review of
            applications for RFA EPA-G2009-STAR-F1:

               	 NCER did not follow the review process required under the Code of
                  Federal Regulations (C.F.R) per 40 C.F.R Part 40.150. After the OIG
                  identified this discrepancy, EPA’s Office of Grants and Debarment (OGD)
                  issued a class exception from 40 C.F.R 40.150 in November 2011 that
                  applied to all past and future use of NCER’s review process, including the
                  process used for RFA EPA-G2009-STAR-F1. Although it was not
                  required, NCER did not make this exception known to the public.
               	 For more than half of the 72 applications reviewed during each peer
                  review, at least one of the three peer reviewers assigned to each
                  application did not provide written comments addressing each RFA
                  evaluation criterion, as required by EPA guidance.
               	 NCER did not have a clearly defined “firewall” practice for its peer review
                  process. NCER personnel had different interpretations of their roles in
                  vetting and selecting reviewers for a June 2010 peer review. The process
                  used to select reviewers for the June 2010 review, in our view, was
                  inconsistent with descriptions of NCER’s firewall practice published in
                  2002 and 2003 National Academies reports.

NCER Did Not Comply With 40 C.F.R 40.150 for RFA But Subsequently
Received an Exception from OGD
            In evaluating the application review process for RFA EPA-G2009-STAR-F1, as
            well as the underlying authorities listed in the RFA, we determined that NCER’s
            review process did not comply with 40 C.F.R 40.150. After we brought this issue
            to the attention of NCER management and EPA’s Senior Associate Director for




12-P-0864                                                                                     6
                Grants Competition,5 NCER requested, and was granted, a class exception from
                the regulation. Although it was not required, this information was not made
                known to the public through NCER’s website.

                40 C.F.R Part 40.150 Requirements and NCER’s Review Process

                The purpose of 40 C.F.R Part 40, listed in RFA EPA-G2009-STAR-F1 as an
                applicable regulation, is to establish and codify mandatory policies and
                procedures governing the award of research and demonstration grants by EPA.
                According to the regulation, all EPA research and demonstration grants are
                awarded subject to EPA interim general grant regulations and procedures and to
                the applicable provisions of Part 40. 40 C.F.R Part 40.150 requires that:

                        Every grant application be reviewed by appropriate EPA staff for
                         relevancy to EPA program needs and priorities, and applicable criteria set
                         forth in 40 C.F.R 40.140.
                        For those applications considered relevant to EPA research, at least one
                         reviewer within EPA, and at least two reviewers outside of EPA, review
                         the applications’ technical merit.

                NCER’s application review process for the RFA we evaluated included reviews
                of both the relevancy of applications to program needs and priorities and the
                technical merit of applications. However, the application review process did not
                follow the specific requirements of 40 C.F.R 40.150. In particular, NCER’s
                review did not include a review of every application by appropriate EPA staff for
                relevancy to EPA program needs and priorities, and applicable criteria set forth in
                40 C.F.R 40.140; or steps or specific evaluation criteria to ensure that at least one
                reviewer within EPA reviewed the applications’ technical merit.

                Class Exception from 40 C.F.R Part 40.150

                The OIG met with EPA’s Senior Associate Director for Grants Competition and
                selected NCER staff to inform them that the STAR grant approval process did not
                comply with 40 C.F.R 40.150. The Senior Associate Director for Grants
                Competition acknowledged that NCER’s process did not follow all of the
                regulation’s requirements, but both he and NCER’s Extramural Management
                Specialist (EMS) indicated that NCER’s review process met the regulation’s
                intended purpose. EPA’s Senior Associate Director for Grants Competition told
                us that he believed the regulation was intended to ensure that EPA funds research
                that is relevant to its needs and priorities.

                Following our discussions with EPA, NCER’s management requested a class
                exception from 40 C.F.R 40.150. On November 18, 2011, EPA’s OGD, with
                concurrence from EPA’s Office of General Counsel (OGC), issued a class
5
 The Senior Associate Director for Grants Competition served as the Grants Competition Advocate (GCA) for RFA
EPA-G2009-STAR-F1. 


12-P-0864                                                                                                   7
            exception from 40 C.F.R 40.150 that applied to NCER’s STAR grant application
            review process. This class exception was applied to both past and future reviews
            of STAR grant applications. Therefore, it allowed NCER’s STAR grant review
            process to deviate from the regulation, and for NCER to continue its practice of
            having STAR grants go through peer review first. EPA’s OGC determined that
            the class exception addressed a procedural matter and that publication of a Federal
            Register Notice announcing the availability of the exception was not necessary.

            In an April 2009 memo, the EPA Administrator reaffirmed EPA’s commitment to
            transparency in Agency operations, noting that, among other things, earning and
            maintaining the public’s trust in the Agency’s decisionmaking depends in part on
            EPA being transparent and inclusive. Under the category of Freedom of
            Information Act (FOIA) policy, her memo noted that “offices should also take
            steps to make information public on the Agency’s Web site without waiting for a
            request from the public to do so.” In our view, EPA’s decision to issue a class
            exception from 40 C.F.R 40.150 for its STAR grants program should be made
            known to the public through NCER’s website.

Peer Reviewer Comments Did Not Consistently Address Evaluation
Criteria Specified in RFA
            For this particular RFA, reviewers for both the December 2009 and June 2010
            peer reviews did not consistently address the RFA evaluation criteria in their
            written comments. Multiple EPA guidance documents stress the importance of
            peer reviewers providing written comments addressing each of the stated
            evaluation criteria in the RFA. For example, EPA Order 5700.5A1 requires “a
            comprehensive, impartial, and objective examination of proposals/applications
            based on the criteria contained in the announcement….” The policy further states
            that “each reviewer must adequately document their evaluation of an applicant for
            the evaluation factors and any subfactors that the applicants proposal/application
            is evaluated against in order to demonstrate the reasonableness of the score or
            rating that results from the evaluation.” Additionally, guidance from the EPA
            OGD states that reviewers should write the strengths and weaknesses of the
            proposal as measured against each criterion stated in the announcement based on
            how well the applicant’s proposal is responsive to, and addresses, the stated
            criteria.

            For both the December 2009 and June 2010 peer reviews for RFA EPA-G2009-
            STAR-F1, each of the 72 applications was assigned to and reviewed by 3 peer
            reviewers. However, for more than half of the 72 applications reviewed during
            each peer review, at least 1 of the 3 reviewers assigned to each application did not
            provide written comments addressing each RFA criterion. We believe this
            occurred because the evaluation criteria listed on NCER’s “Individual




12-P-0864                                                                                      8
                 Evaluation” form6 did not align with the specific evaluation criteria listed in RFA
                 EPA-G2009-STAR-F1. Therefore, in essence, each peer reviewer for this RFA
                 received two different sets of evaluation criteria. Table D-1 in appendix D shows
                 the differences in the RFA evaluation criteria and those listed on the Individual
                 Evaluation form. Tables D-2 and D-3 provide additional details on our analysis.

                 When we asked the SRA assigned to this RFA for the reason the Individual
                 Evaluation form did not align with the RFA evaluation criteria, he said the form is
                 a boilerplate template that is used by all SRAs in PRD. He said that PRD does not
                 create forms for specific RFAs. We believe the failure to align the Individual
                 Evaluation form with the criteria listed in the RFA led to many peer reviewers
                 focusing their written comments on the wrong set of evaluation criteria.

                 In addition to being required by EPA policy, written evaluation comments should
                 address each RFA evaluation criteria for multiple reasons. First, the Individual
                 Evaluation forms are used by peer reviewers and the SRA to facilitate discussions
                 of the application’s merit at the face-to-face peer review meetings. For NCER to
                 fund research that aligns with the RFA, peer reviewers should focus their
                 discussions on the RFA evaluation criteria above all other factors. Second, written
                 evaluation comments provide NCER management and applicants with a means of
                 understanding how reviewers considered the application against the RFA criteria.
                 Such comments would be particularly useful to NCER management when
                 concerns are raised about a panel’s ability to evaluate the most important research
                 qualities, as discussed in the RFA evaluation criteria.

                 In December 2011, after the OIG briefed NCER management on our tentative
                 findings relative to the peer review evaluation forms, NCER’s EMS sent e-mail
                 guidance reminding NCER staff of the need to ensure Individual Evaluation
                 forms matched the criteria cited in the RFA.

Lack of Clearly Defined “Firewall” Policy Presents Risk to Integrity
and Independence of STAR Grant Peer Review Process
                 EPA Order 5700.5A1 requires an objective and impartial examination of
                 applications for Agency grants. According to the NRC’s 2003 report, one of the
                 steps that NCER has taken to ensure the independence of its STAR grant review
                 process was establishing a firewall shielding its peer review process from the
                 influence of the project officers and staff who oversee the individual investigator,
                 fellowship, and center awards. Although the NRC report cited the firewall as a
                 key factor supporting its conclusion that NCER had an independent peer review
                 process, NCER has not defined its firewall in internal procedures or other written
                 policies. During our evaluation we received varying accounts of how the firewall



6
 The Individual Evaluation form is distributed to peer reviewers electronically at the same time the applications are
mailed to the peer reviewers. Reviewers are asked to use this form to provide written comments for each application.  


12-P-0864                                                                                                          9
                 was defined and has been practiced within NCER. However, none of these
                 descriptions have been included in written EPA guidance, policies, or procedures.

                 We did not assess the independence of either peer review panel convened for this
                 RFA. However, the lack of a clearly defined firewall practice at NCER presented
                 a risk to the independence of the peer review process for RFA EPA-G2009-
                 STAR-F1. In the absence of clearly defined roles and responsibilities under
                 NCER’s firewall, NCER utilized a process to select reviewers for its June 2010
                 peer review that, in our view, was inconsistent with descriptions of the firewall
                 included in the 2002 and 2003 National Academies reports.

                 NCER’s Firewall is Not Clearly Defined

                 In 2003, NRC cited NCER’s firewall as a key factor in concluding that the STAR
                 program had established a rigorous process to evaluate the quality of proposals.
                 However, the firewall concept is not described in NCER guidance, policies, or
                 procedures. During our evaluation, we found limited descriptions of NCER’s
                 firewall in publications external to EPA. A 2002 Transportation Research Board
                 (TRB) of the National Academies report7 stated that for NCER’s STAR grant
                 program “A firewall is established between staff who administer the independent
                 peer review and staff who write or select RFAs.” In a 2003 report, the NRC
                 described NCER’s firewall as follows:

                          The program’s procedures provide for a firewall that shields the
                          peer-review process from any influence or potential conflicts of the
                          project officers and staff who oversee the individual investigator,
                          fellowship, and center awards. For instance, project officers can
                          provide the names of potential reviewers to the Science Review
                          Administrators (SRAs), also known as peer-review officers, but it
                          is the sole responsibility of the SRAs to select reviewers and to
                          make reviewer assignments. Project officers may attend peer-
                          review meetings as observers but may not provide any comments
                          that would affect peer review.8

                 We also obtained verbal descriptions of the firewall from NCER staff and
                 managers. While we found some agreement in the descriptions of the firewall
                 provided to us by NCER staff and managers, we also found discrepancies.
                 Further, NCER did not provide us with a definitive description of the firewall
                 outlining the roles and responsibilities of all personnel involved in the peer review
                 process. The Former ASD Director told us that people in NCER had differing

7
  Surface Transportation Environmental Research: A Long-Term Strategy. Committee for the Surface
Transportation Environmental Cooperative Research Program Advisory Board, National Research Council. Special
Report 268. 2002. 
8
  According to the NRC report, the process for selecting proposals was described to the committee by the person
responsible for managing it and by several STAR project officers, and some committee members had participated in
the process previously.


12-P-0864                                                                                                     10
                  interpretations on how the firewall should work, and how people should be
                  involved in the peer review process.

                  The limited description of the STAR grant program’s firewall that was included in
                  2003 NRC report was central to our interpretation of how the firewall should be
                  practiced, as it was a key factor cited in support of NRC’s conclusion that the
                  STAR grant program had established a rigorous and independent peer review
                  process.

                  NCER Personnel Had Different Interpretations of Roles in Vetting and
                  Selecting Reviewers for June 2010 Peer Review

                  For the December 2009 peer review, we found that the SRA followed protocol in
                  selecting the peer reviewer expertise needed to review applications for RFA EPA-
                  G2009-STAR F1. However, an NCER manager’s involvement in the reviewer
                  selection process for the June 2010 peer review, in our view, was inconsistent
                  with descriptions of the firewall in the 2002 and 2003 National Research Council
                  publications.

                  Typically, the SRA assigned to manage the peer review has flexibility in
                  identifying peer reviewers and often does so after reading abstracts or full
                  applications to independently determine the types of reviewers or expertise
                  needed for the panel. As noted in NCER’s draft PRD procedures and policies, as
                  well as the 2003 NRC report, the SRA has sole responsibility for panel selection
                  decisions. The SRA, the PRD Director, the NCER Director, and the former ASD
                  Director all acknowledged that it is the SRA’s, or PRD’s, responsibility to make
                  such decisions.

                  For the June 2010 peer review, the SRA told us that he did not make the final
                  panel selection decisions. For this peer review, the PRD Director worked with the
                  NCER Director and NCER Senior Science Advisor to determine a peer review
                  methodology that included selecting reviewers with specific types of expertise.9
                  The SRA said he was told by the PRD Director to identify potential reviewers in
                  these specific areas of expertise and then submit the names to NCER’s Senior
                  Science Advisor to obtain feedback. The SRA said this was not normal and that
                  NCER had never employed this type of selection process in the past.

                  The Senior Science Advisor told us that, among her other general responsibilities,
                  she reviews all draft RFA’s before they are forwarded to EPA’s grants office.
                  Therefore, according to the firewall description in the 2002 TRB report, we
                  considered the Senior Science Advisor to be an individual who should be
                  separated from the peer review process.


9
 NCER determined that the June 2010 peer review panel should consist of the following types of reviewers:
(1) public health specialists; (2) water infrastructure specialists; and (3) “futurists,” individuals who exhibited
characteristics of innovativeness. 


12-P-0864                                                                                                             11
            The NCER Senior Science Advisor told us that she evaluated the resumes of
            potential peer reviewers in consultation with managers in EPA’s Office of Water
            and ORD’s Water Quality Research Program, and made recommendations to the
            SRA about which reviewers might be good candidates for the SRA to contact for
            the June 2010 peer review. She told us that she did not make final approvals for
            reviewer selections. The Senior Science Advisor told us that she was asked by the
            NCER Director to look at the qualifications of potential reviewers in terms of
            whether or not they could provide an appropriate evaluation of applications for
            the RFA. As an illustration of her role, ORD provided us with May 2010 e-mails
            between the Senior Science Advisor and the SRA. In the e-mails, the SRA
            provided names of potential peer reviewers, along with resumes, and asked the
            Senior Science Advisor to “review and advise whether they are suitable…” for the
            June 2010 panel. NCER management told us that the process used in selecting
            reviewers for the June 2010 peer review was appropriate, and that it was
            acceptable for the Senior Science Advisor to review the suitability of potential
            reviewers.

            In contrast, the SRA and PRD Director told us that all peer reviewer selections for
            the June 2010 peer review were reviewed and approved by NCER’s Senior
            Science Advisor. Internal ORD e-mails sent prior to the June 2010 peer review
            supported what the SRA and PRD Director had told us. Although the Senior
            Science Advisor was copied on some of the e-mails, they were not addressed to
            her. These e-mails characterized the Senior Science Advisor as someone that was
            approving peer reviewer selections. For example, on April 13, 2010, the PRD
            Director sent an e-mail to the NCER Director stating that:

                   Based on recommendations from a number of people across the
                   Agency, PRD pulled together a list of 27 potential peer reviewers -
                   - nine reviewers in each of the three expertise categories (public
                   health, water infrastructure and futurists/innovation). We provided
                   that list to [name of Senior Science Advisor] along with the
                   available [resumes].

            The e-mail further stated that the Senior Science Advisor had managers in EPA’s
            Office of Water and ORD’s Water Quality Research Program review the list of
            potential peer reviewers, and that these individuals “picked” peer reviewers out of
            the list of 27 names. The PRD Director informed the NCER Director in the April
            13, 2010, e-mail that:

                   PRD is putting together the paperwork for the potential peer
                   reviewers who have received a ‘yes’ nod from at least one of
                   [name of Senior Science Advisor’s] reviewers.

            A May 11, 2010, e-mail from a PRD Program Analyst to the PRD Director stated:




12-P-0864                                                                                    12
                   [name of SRA] has requested two additional people. One for
                   Group 3 [name of potential peer reviewer] and one for Group 2
                   [name of potential peer reviewer].

                   [name of Senior Science Advisor] approved the selection of [name
                   of potential peer reviewer the SRA identified for Group 3, above].
                   Her paperwork is in funding at the present time.

            In the May 19, 2010, e-mail, the PRD Director stated that:

                   When people backed out last week, [name of SRA] moved quicly
                   [sic] to find replacements and get them ‘OKed’ by [name of Senior
                   Science Advisor].

             Several sources indicated that NCER’s firewall calls for PRD, specifically the
            SRA, to make reviewer selections and assignments. As noted above, two
            National Academies reports describe the firewall as having an element of
            separation between the PRD and other NCER staff and management during the
            peer review process. In our view, this separation was not maintained by NCER for
            RFA EPA-G2009-STAR-F1, though NCER management told us that they
            believed the Senior Science Advisor’s role in this particular RFA was appropriate.
            Without further clarification and written definition of the firewall practice, the
            independence and integrity of the STAR grant review process are at risk.

Impact of Project Officer Concerns on Peer Review Results Points to
Management Control Weakness
            The decision to convene a second peer review panel was due, in part, to non-PRD
            staff influence over the peer review process that occurred during the December
            2009 peer review. After observing the December 2009 peer review panel meeting,
            the project officer expressed concerns over the lack of diversity in the expertise of
            peer reviewers to NCER’s ASD Director. Although the project officer stated that
            she expressed her concerns to the ASD Director “shortly after the peer review,”
            the ASD Director told us that he chose not to elevate the concerns about the
            December 2009 peer review to the NCER Director, letting the process continue
            on to programmatic review. In January 2010, after a programmatic review was
            completed, the project officer drafted a decision memo, with consultation and
            approval from the ASD Director, for the NCER Director. The decision memo
            noted concerns with the December 2009 peer review, but also recommended nine
            applications for funding. The memo noted that the review process produced “…a
            suite of complementary and diverse research projects that tackle high-priority,
            high-visibility nationally-relevant environmental issues.” The memo further noted
            that the projects would enable key stakeholders “to develop and implement
            effective policies to reduce public health risks associated with exposure to
            drinking water, safeguard the quality and availability of surface and underground



12-P-0864                                                                                     13
                  sources of drinking water, improve the water infrastructure, and establish health-
                  based measures of management effectiveness.”

                  Although the process had produced a seemingly acceptable suite of research
                  projects that had passed both peer and programmatic review, the NCER Director
                  made a decision to void the December 2009 peer review results and subject the
                  applications to another peer review and programmatic review. When we asked the
                  NCER Director about his decision, he said that, based on the concerns stated in
                  the decision memo about the December 2009 peer review, he thought it was best
                  to go back and take a second look at the applications to ensure NCER was
                  funding the best research.

                  According to the NCER Deputy Director, the NCER Director’s decision to void
                  the peer review was an appropriate use of discretion and responsibility. He stated
                  that the NCER Director has the authority and responsibility to void peer review
                  results, if necessary. The Senior Associate Director for Grants Competition
                  expressed a similar sentiment, stating that his advice would be to redo the
                  evaluation if there was merit to the concerns expressed. However, the NCER
                  Director did not provide evidence that he took steps to independently substantiate
                  staff concerns prior to making his decision, nor did he document his decision for
                  the record. We believe this undermined the purpose of the firewall, potentially
                  exposing the process to conflicts of interest. In this instance, the project officer
                  and the ASD Director—positions that, according to National Academies’
                  publications, are not supposed to have influence over the peer review process—
                  provided information to the NCER Director that led to changes in review process
                  results. The NCER Director did not substantiate the concerns raised by the project
                  officer and ASD Director; his decision to redo the application review process
                  resulted in two grant proposals not passing the June 2010 peer review that had
                  passed the December 2009 peer review. As evidenced by a grant applicant’s letter
                  to EPA’s Assistant Administrator for Research and Development, such actions
                  can call into question the integrity of the application review process.

Concerns Cited in Support of NCER Management Decision to Void the
December 2009 Peer Review Not Valid
                  In a February 2010 decision memo to the NCER Director, the project officer and
                  ASD Director noted two primary concerns with the December 2009 peer review:
                  the panel lacked public health expertise, and the panel did not value innovation.
                  According to the NCER Director, he made the decision to redo the external peer
                  review due to the concerns noted in the decision memo and staff concerns
                  expressed at the February 2010 decision meeting.10



10
  The Project Officer told us that a February 2010 decision meeting never occurred, and other staff told us that they
could not remember if a meeting ever took place. This was due, in part, to inclement weather in Washington, DC,
around the time of the scheduled meeting. 


12-P-0864                                                                                                          14
            We independently examined the concerns about the December 2009 peer review
            panel. The panel was mainly comprised of individuals with engineering
            backgrounds. However, based on our analysis of the peer reviewer biographies
            provided by ORD, at least 8 of the 26 peer reviewers (31 percent) from the
            December 2009 peer review, including some of the engineers, had public health
            expertise. Therefore, the panel did not lack public health expertise, as stated in the
            decision memo. We also determined that “innovation” was not an area of
            expertise but rather a characteristic of the research proposals that, per the
            evaluation criteria identified in the RFA, should have been evaluated by peer
            reviewers with appropriate technical expertise. Based on our analysis, we found
            no evidence suggesting that the SRA did not perform his duties with respect to
            identifying and selecting appropriate panel members. Therefore, in our view, the
            NCER Director’s decision to void the December 2009 peer review results was
            largely unfounded.

NCER’s STAR Grant Review Process Needs Improved Management
Controls
            In general, NCER lacked sufficient procedures and management controls to
            ensure the independence of its STAR grants competition process. EPA Order
            5700.5A1, the RFA, and the applicable regulations cited in the RFA were the only
            formal policy and procedures documents provided to OIG by NCER that
            governed its STAR grants award process. The other documents provided were
            either informal guidance (provided to NCER personnel via e-mail, existed in draft
            form, etc.) related to specific portions of the STAR grant review process (e.g.,
            peer review) and not to the entire process, or did not include specific procedural
            steps for NCER staff. None of the Agency’s documents formalized NCER’s
            firewall practice, outlined procedures for substantiating concerns regarding peer
            review results, identified a process for re-evaluating applications, or specified
            how decisions to alter or change the typical review process should be
            documented.

            A lack of formalized procedures was particularly evident with respect to NCER’s
            decision to void the December 2009 peer review results. For example:

               	 The NCER Director was not informed of staff concerns about the
                  December 2009 peer review until the application review process had
                  proceeded nearly to completion. 
               	 The NCER Director appeared to make a decision to redo the review
                  process without consulting key personnel, including NCER’s EMS, the
                  ASD Director, the PRD Director, EPA’s Senior Associate Director for
                  Grants Competition (or any other personnel in EPA’s OGD), or Agency
                  ethics officials.  
               	 The NCER Director proceeded to void the December 2009 peer review
                  results without independently investigating or validating the concerns



12-P-0864                                                                                      15
                   noted about that peer review, or providing any documented justification
                   for his decision to void the results of the review.  

            According to the Senior Associate Director for Grants Competition, if issues
            existed that affected the propriety, quality, objectivity, or results of the review,
            it is advisable to redo the peer review. However, such issues should be
            demonstrated, substantiated, and supported before a decision is made to void peer
            review results.

NCER’s Decision to Void the December 2009 Peer Review Resulted in
Delays and Additional Costs

            NCER management’s decision to conduct a second peer review in June 2010 cost
            NCER over 250 hours of staff time, and over $9,250 in payments for peer
            reviewers and application processing. The decision to utilize these additional
            resources was made without demonstrating that a condition warranting such a use
            of resources actually existed. In addition, the decision delayed funding decisions
            by approximately 6 months. Four of the eight applicants interviewed by OIG
            commented on the significant delays in NCER’s review process. One applicant
            noted that the length of the review process could have impacted the costs
            associated with the research proposal because costs change over time. Another
            applicant stated that he was upset and discouraged because his group missed an
            opportunity to apply for another grant due to the delay in EPA’s response.

Conclusions
            Improved management controls are needed to ensure the independence and
            effectiveness of EPA’s STAR grants review process. We did not find evidence of
            fraud or intentional manipulation of the application review process for RFA EPA-
            G2009-STAR-F1. However, the management control weaknesses we identified
            put the Agency at risk for fraud or other manipulations of its STAR grant
            program. At a minimum, the management control weaknesses have the potential
            to damage the reputation of the STAR grant program as an independent and
            rigorous process that provides funding for high-quality research.

Recommendations

            We recommend that the Assistant Administrator for Research and Development:

               1. 	 Take steps to make EPA’s decision to issue a class exception from
                    40 C.F.R 40.150 for its STAR grants program known to the public through
                    NCER’s website.

               2. 	 Direct NCER to develop and/or update written procedures so that the
                    review template is consistent with evaluation criteria published in the
                    STAR Grant RFA prior to releasing the review forms to panelists.


12-P-0864                                                                                     16
               3. 	 Direct NCER to establish written procedures for administering the STAR
                    grant review process. Such procedures should include:

                       a.	 A description of management controls needed to ensure applicable
                           regulations and policies are adhered to, and how such controls will
                           be implemented.
                       b.	 Descriptions of roles and responsibilities of the various NCER
                           divisions and personnel involved in the STAR grant review
                           process. In particular, the roles and responsibilities of the SRA and
                           project officer should be clearly defined.
                       c.	 A clearly defined policy for NCER’s firewall, including how it will
                           be implemented and practiced.

               4. 	 Direct NCER to develop and/or update written procedures that provide
                    guidance on voiding peer reviews or conducting re-reviews for STAR
                    grant competitions, including:

                       a.	 How to appropriately evaluate and document the need for a
                           re-review. 
                       b.	 Descriptions of how and when to involve parties within and
                           outside of NCER. 
                       c.	 Appropriate timelines for each step.  

Agency Comments and OIG Evaluation
            The Agency generally agreed with our conclusion that improved management
            controls are needed to ensure the independence and effectiveness of NCER’s
            STAR grant program. However, the Agency believed that we misinterpreted
            statements attributed to EPA staff members, and mischaracterized NCER’s
            firewall. Further, the Agency stated that one chapter 2 section heading could be
            taken out of context. We re-examined each of these areas and made changes to the
            final report to state that NCER has not clearly defined its firewall practice. We
            revised the heading in question to clarify that our findings are specific to NCER’s
            STAR grant review process. Further, we revised the report to state that NCER
            personnel had different interpretations of their roles in vetting and selecting
            reviewers for the June 2010 peer review. However, we continue to believe that
            NCER’s Senior Science Advisor’s role in the peer review process was not
            consistent with previously published descriptions of the firewall.

            Several sources indicated that NCER’s firewall calls for PRD, specifically the
            SRA, to make reviewer selections and assignments. However, the SRA and PRD
            Director told us that they did not make final reviewer selections for the June 2010
            peer review, and that reviewers were approved by the Senior Science Advisor. We
            have included language in the report to reflect NCER management’s disagreement
            with this characterization. Further, in support of the Senior Science Advisor’s


12-P-0864                                                                                    17
                 assertion that she was not providing reviewer approvals, we have included
                 reference to an e-mail stating that she assessed the “suitability” of two prospective
                 peer reviewers submitted to her by the SRA for the June 2010 panel. However, we
                 have also included references to a number of e-mails characterizing the Senior
                 Science Advisor’s role in the June 2010 peer review process as someone that was
                 involved in reviewing and approving peer reviewer selections. We also made it
                 clear that the Senior Science Advisor was copied on some of these e-mails, but
                 that they were not addressed to her.

                 Although the Agency’s response contained alternative recommendations, the
                 Agency noted in the exit conference that it agreed with the intent of our
                 recommendations.11 The Agency generally agreed with Recommendation 1 as
                 written. For the other chapter 2 recommendations the Agency generally agreed to
                 develop the requisite internal controls but suggested alternative recommendations.
                 For recommendations 3a and 3b in the final report, NCER suggested we make an
                 alternative recommendation to develop overarching, NCER-wide operational
                 guidance for staff responsibilities, communication, and training. While we believe
                 this could be appropriate for NCER management to consider as it addresses our
                 recommendations, we believe that our recommendation to develop STAR grant-
                 specific procedures focusing on the issues we found is more appropriate given the
                 scope of our evaluation. We did not make changes to recommendations 3a and 3b.
                 The Agency also proposed alternative recommendations that met the intent of
                 some of our draft report recommendations. Therefore, we included the Agency’s
                 alternative recommendations as recommendations 2 and 4 in the final report.
                 These recommendations replaced recommendations 2c, 2d, 2e, and 2f from the
                 draft report. The draft report recommendations are included in appendix E. The
                 only change we made to the Agency’s suggested alternative recommendations
                 was to clarify that the recommendations are specific to the STAR grant program.

                 All recommendations in Chapter 2 are considered unresolved until such time as
                 the OIG and EPA reach agreement on required actions and planned completion
                 dates. In its 90-day response to the final report, EPA should provide a description
                 of the Agency’s planned corrective actions, as well as the estimated or actual
                 milestone completion dates for each action. The Agency’s written comments and
                 OIG’s response are in appendix E.




11
  During the exit conference, ORD said that their "alternative recommendations" were not alternatives to OIG's
original recommendations but proposed actions for addressing OIG's recommendations. 


12-P-0864                                                                                                        18
                                  Chapter 3

  Improved Program Guidance, Management Controls 

   Can Aid NCER’s Communications With Applicants 

            NCER did not communicate with all applicants for RFA EPA-G2009-STAR-F1
            in a transparent, appropriate, accurate, and timely manner. For example, NCER
            was not transparent in communicating:

                  Its decision to conduct a second review
                  The expected delays resulting from the second review
                  Whether the results sent to applicants were based on the December 2009
                   or June 2010 peer review.

            NCER’s declination letters did not adhere to Agency policy because they did not
            sufficiently explain why applicants were not selected, nor did they inform
            applicants of their option to request a debriefing. NCER informally communicated
            results to some applicants prior to final selection decisions. Further, some letters
            NCER sent to applicants contained incorrect contact information, and some were
            sent about a week later than the timelines specified by EPA policy. NCER lacks
            sufficient guidance or procedures that formalize lines of accountability for
            communicating with applicants during its review process. In particular, staff were
            unsure as to who was responsible for organizing, preparing, signing, maintaining,
            and sending notifications after the peer review and programmatic review. Also,
            improved management controls are needed to ensure that NCER’s communications
            with grant applicants are transparent and accurate, and adhere to Agency policy and
            guidance. Ineffective communications with grant applicants can potentially damage
            the reputation of the STAR grant program as an independent and rigorous process
            that provides funding for high quality science.

NCER Not Transparent in Communicating Decision to Conduct 

Second Review for RFA 

            In an April 2009 memo, the EPA Administrator expressed the importance of
            transparency and openness in conducting EPA operations. According to the
            memo, this requires EPA to (1) remain open and accessible to those representing
            all points of view, and (2) be responsible for decisions by soliciting the views of
            those who will be affected by these decisions. The Administrator also stated that
            she believes transparency will enhance the credibility of the Agency, boost public
            trust, and improve the quality of EPA’s decisions.

            For this RFA, NCER was not transparent in communicating its decision to
            conduct a second review and the expected delays this would cause were never
            stated in any formal communications. Rather than being proactive in notifying all



12-P-0864                                                                                    19
                 applicants about the decisions and delays in the review process, NCER only
                 communicated the changes to its process to those applicants who made inquiries.

                 According to EPA’s Senior Associate Director for Grants Competition, all
                 applicants should be notified if a program office conducting a competition decides
                 to redo the evaluation review of applications (i.e., conduct a new peer review).
                 However, in an e-mail from the NCER Director, the project officer for this RFA
                 and the ASD Director were directed to respond to the e-mail inquires with the
                 following statement:

                          there has been an unanticipated delay in our process, and we are
                          working to get back on track.

                 NCER staff responded to the e-mail inquires with the suggested text from the
                 NCER Director or other vague explanations as to why there were delays in the
                 review process. For instance, NCER told applicants that delays in the review
                 process were due to “re-processing” applications, “a bureaucratic process glitch,”
                 and “unusual setbacks” in processing the applications.

                 Further, NCER did not explain the changes that occurred during its review
                 process for this RFA in its declination letters. In particular, these letters did not
                 state that a second review was conducted or that the second peer review was a
                 mail review12 rather than a panel review. In addition, the peer review Individual
                 Evaluation forms included with the declination letters sent to applicants after the
                 June 2010 peer review were dated 2009, even though the review was completed in
                 2010. In our view, using a 2009 date on an Individual Evaluation form that was
                 generated in June 2010 may have been misleading to applicants.

                 As a result of the Agency’s lack of transparency during the review of this RFA,
                 some applicants were unclear about the review process and others were confused
                 about why they had not heard from the Agency for an extended length of time or
                 by the anticipated timeline. For example:

                      	 Three applicants questioned why they received a notification from EPA,
                         stating that their application passed after receiving a declination letter.
                      	 One applicant filed a FOIA request to obtain additional information
                         because staff did not provide sufficient information to explain why the
                         review process for this RFA had to be redone.
                      	 Two applicants assumed the delays in the process or multiple notifications
                         were a result of an administrative or automated systems problem.


12
  For this RFA, NCER held a face-to-face panel meeting for the December 2009 peer review and a mail review for
the June 2010 peer review. According to SRA for this RFA, the mail review is based on individual reviewers and
individual evaluations, and there is no group discussion of the results. According to NCER personnel, NCER does
not have guidance outlining its process for conducting mail reviews. NCER staff told us that they conducted a mail
review for the June 2010 peer review because they believed it would be faster than another face-to-face peer review.


12-P-0864                                                                                                        20
                       	 One applicant believed that the declination letter she received after the
                          December 2009 peer review was the official result of NCER’s review of
                          her application. She was not provided the results of the June 2010 peer
                          review, and was not aware that a second peer review had been conducted.
                       	 Two applicants incorrectly assumed that the peer review results attached
                          to the June 2010 declination letter were based on the first round of
                          reviews, and were unaware that a second peer review had been conducted.
                        Fifteen applicants contacted NCER to check on the status of the review.
                        Four of the 15 applicants who contacted NCER to check on the status of
                          the review did so on multiple occasions.

NCER’s Formal Communication With All Grant Applicants Did Not
Adhere to Agency Policy, Guidance, and Guidelines
                  We reviewed documented communication between NCER and grant applicants
                  for RFA EPA-G2009-STAR-F1 and found that some of NCER’s formal
                  communications with applicants did not follow applicable policy and guidance.
                  NCER sent formal13 notifications, in the form of a letter or e-mail, to applicants
                  regarding selection decisions after the December 2009 and June 2010 peer
                  reviews, and after the August 2010 final decision meeting. Examples of formal
                  notifications sent to applicants included:

                       	 Peer review declination letters that informed applicants that EPA was
                          unable to fund the proposed research
                       	 Review status letters that informed applicants that the proposed research
                          passed peer review and requested past performance and reporting history
                          information from the Lead Principal Investigator(s)
                       	 Notice of award letters that informed applicants that the proposed research
                          was being recommended for funding
                       	 Final declination letters that informed applicants that EPA was unable to
                          fund the proposed research based on scientific merit and relevancy to
                          EPA’s programs

                  Formal Communication With Unsuccessful Applicants Did Not
                  Adhere to Agency Policy and Guidance

                  According to EPA Order 5700.5A1, EPA program offices conducting grant
                  competitions must provide unsuccessful applicants with written or e-mail
                  notification. These notifications must generally explain the reasons why the
                  application was not eligible for award consideration based on the threshold
                  eligibility review or score after an evaluation of its application against the

13
   The OIG’s use of “formal” communication included any official correspondence with applicants in the form of a
letter, e-mail, phone call, or personal visit. For this evaluation, information that was provided in an EPA notification
that was sent to all applicants as a result of a selection decision, or provided to all applicants during a conference call
or a professional meeting, was considered “formal” communication. 


12-P-0864                                                                                                               21
            selection factors in the announcement. Based on the PRD draft procedures and
            policies guidance document for the STAR grant peer review process, unsuccessful
            applicants will be mailed declination letters, along with the relevant Individual
            Evaluation form, after the peer review and final decision meeting.

            EPA Order 5700.5A1 also states that these notifications must advise the applicant
            that he or she may request a debriefing of the basis for the ineligibility
            determination or selection decision. According to EPA Order 5700.5A1,
            debriefings may be done orally or in writing, and will be limited to explaining
            why the applicant was not considered for award. Prior to PRD sending
            notifications to applicants after the December 2009 peer review, the NCER EMS
            sent guidance stating that notifications sent to unsuccessful applicants must
            provide an option to request a debriefing. The guidance noted that providing
            applicants with a copy of the peer review results does not constitute a debriefing.
            If applicants request a written debriefing, the guidance from the EMS also noted
            that the letter serving as the written debriefing needs to state that it will serve as a
            debriefing. After receiving a debriefing, EPA Order 5700.5A1 states that an
            unsuccessful applicant may file a written dispute with the Agency and must be
            provided with reasonable access to Agency records relevant to the dispute in a
            manner consistent with FOIA standards.

            We found that the declination letters sent to applicants for RFA EPA-G2009-
            STAR-F1 did not follow applicable policy and guidance. The declination letters
            NCER sent to applicants after the December 2009 and June 2010 peer reviews did
            not sufficiently explain to the applicants why their application was not selected
            for an award. Further, these letters, as well as notifications sent after the final
            selection meeting, did not inform the applicants of their option to request a
            debriefing. As a result, applicants were not advised of an opportunity to obtain
            additional information on the reasons why their application was not selected for
            an award. For example, during interviews with eight applicants who submitted
            applications under this RFA, we found that five of the applicants were not aware
            of the option to request a debriefing. Not advising applicants of such an
            opportunity potentially hinders the applicants’ ability to improve their
            applications for future EPA grant competitions.

            PRD staff told us that one applicant requested a debriefing for this RFA, but the
            debriefing conducted by PRD did not follow Agency policy and guidance. The
            written debriefing did not:

                   State that it would serve as the applicant’s debriefing
                   Explain why the applicant was not selected for award
                   Provide the applicant with information on the strengths and weaknesses of
                    his/her application in terms of the specific evaluation criteria used in the
                    competition
                   Explain the dispute process and dispute contact




12-P-0864                                                                                         22
            Instead of informing the applicant of the opportunity and provisions for filing a
            dispute, the written debriefing informed the applicant of the opportunity and
            provisions for filing an FOIA request. When we asked the applicant about the
            written debriefing provided to her by PRD, the applicant was unclear whether a
            formal debriefing had actually occurred. She suggested that a discussion she had
            with the NCER Director could have been the formal debriefing. However,
            according to the NCER Director, the discussion with the applicant was to explain
            what had happened during the review process for this RFA and not to explain the
            applicant’s results or serve as the applicant’s debriefing.

            Formal Communication With Successful Applicants Did Not Adhere
            to Guidelines in RFA

            The RFA states that applicants passing peer review will be sent a notification,
            which we referred to as a review status letter, requesting past performance and
            reporting history information from the lead Principal Investigator(s). NCER sent
            review status letters to each of the 11 applicants who passed the December 2009
            peer review. However, after the June 2010 peer review, 9 of the 34 applicants
            (26 percent) who passed the peer review did not receive review status letters from
            NCER as per the RFA guidelines. These nine applicants also passed the
            December 2009 peer review. According to PRD staff, applicants who passed both
            peer reviews were not sent review status letters after the June 2010 peer review
            due to the format of the computer system. The computer system did not generate
            another notification for these applicants because it had already sent notifications
            after the December 2009 peer review. As a result, these applicants were not
            informed that their earlier review status letter had been voided or that their
            application had been subjected to and passed the peer review again.

            Further, these applicants were not asked to provide updated past performance and
            reporting history information even though about 6 months had passed. The
            Agency’s failure to request the applicants’ updated information meant that NCER
            was evaluating past performance and reporting history for some applicants that
            was 6 months old, while others were being evaluated on information that was
            current to June 2010. As noted by ORD, “An applicant’s ‘Past Performance and
            Reporting History’ provides information essential to evaluating the potential
            performance success of an applicant.” While we did not find that this condition
            adversely impacted applicants for this RFA, all applicants should be treated
            equally in terms of the information on which they are being evaluated.




12-P-0864                                                                                    23
NCER’s Informal Communication With Applicants Presented Risk of
Providing Applicants With Inaccurate Information
                 Between December 2009 and October 2010, NCER informally14 communicated
                 with about half of the 72 applicants who were eligible under this RFA.15 NCER
                 informally communicated the status of the review process or whether applications
                 were still being considered for awards through phone conversations and e-mails.
                 While this informal communication is not explicitly prohibited by EPA policy, we
                 believe such communication increases the risk that applicants will be provided
                 erroneous or incomplete information. Further, informal communications with
                 applicants could create a perception of EPA favoring one applicant over others.

                 EPA Order 5700.5A1 states that, during the competition process, individuals can
                 communicate with applicants under the condition that the advice or information
                 will not give applicants a competitive advantage. After the submission of
                 applications, EPA Order 5700.5A1 also states that EPA personnel may have
                 limited communications with applicants for the purpose of clarifying certain
                 aspects of the application relating to threshold eligibility factors, for partial
                 funding purposes, or to resolve minor or clerical errors. According to EPA’s
                 Senior Associate Director for Grants Competition, it is appropriate for NCER
                 staff, such as a project officer, to respond to inquiries from applicants seeking
                 updates on the status of the review process. However, he said that communication
                 with applicants should only indicate where the Agency is in the review process
                 and not provide any unofficial results related to specific applications.

                 Between June and September 2010, NCER informally communicated the results
                 of the review to 25 different applicants. For instance, after a June 2010
                 programmatic review had been completed, NCER sent five applicants an informal
                 e-mail notifying them that their proposals were still “in the running.” However,
                 this occurred about 3 weeks before the NCER Director signed the memorandum
                 containing the final recommendations for funding (i.e., NCER’s official funding
                 recommendations). Similarly, about a week before the official results, NCER sent
                 informal e-mails to 12 applicants notifying them that their proposals were “no
                 longer in the running.” One applicant was notified by NCER after the June 2010
                 programmatic review that her application was “still very much in the running.”
                 About 2 weeks later, but still prior to when official funding recommendations had
                 been made, NCER sent an e-mail to that same applicant stating that the proposal
                 was “very unlikely to be awarded.”

                 By providing informal results to applicants in advance of those results becoming
                 official, NCER could have potentially led applicants to expect an award when, in
                 fact, their application was not selected at the final decision meeting. Similarly,
                 such communications could have led some applicants to believe their application
14
   The OIG’s use of “informal” communication included any unofficial correspondence with applicants in the form
of a letter, e-mail, phone call, or personal visit that does not classify as “formal” communication defined above. 
15
   This information is based on the records or documentation NCER staff provided to OIG. 


12-P-0864                                                                                                         24
                  was not going to receive an award when, in fact, it was still being considered for
                  funding.

Inaccurate Contact Information Provided to Applicants Had Potential
to Impact Deadlines, But Did Not Impact Applications for RFA
                  We found some inaccuracies in the formal NCER communications that we
                  reviewed for this RFA. Specifically, the review status letters NCER sent
                  applicants after the December 2009 peer review contained spelling errors,
                  including the misspelling of the project officer’s last name in the signature and
                  e-mail address. However, we did not find that these inaccuracies had a significant
                  impact on the applicants for the RFA. Six applicants (about 55 percent of
                  applicants who passed the December 2009 peer review) indicated problems
                  sending the requested past performance and reporting history information to the
                  project officer due to the incorrect contact information in the review status letters.
                  One applicant’s submission was delayed 11 days while the applicant sought
                  correct contact information for the project officer. We also noted that the SRA’s
                  first name in the signature of the declination letters sent after the June 2010 peer
                  review was spelled incorrectly.

                  The inaccurate contact information that we found in the review status letters was
                  potentially important because these letters requested applicants to send past
                  performance and reporting history to the project officer within 3 weeks of the
                  receipt in order to be considered for the programmatic review. Even though some
                  applicants indicated problems sending the requested information to the project
                  officer, we did not find that the inaccurate contact information in these letters
                  prevented any applicants from providing required information to EPA within the
                  required timeframe or from being considered in NCER’s programmatic review.
                  Further, we did not identify any impacts as a result of the SRA’s first name being
                  spelled incorrectly. However, the inaccuracies we noted have the potential to
                  impact the ability of applicants to contact appropriate Agency staff and to submit
                  requested information to EPA prior to stated deadlines.

NCER Did Not Communicate Peer Review Results to Applicants in a
Timely Manner for RFA
                  EPA Order 5700.5A1 states that the program office conducting the competition
                  must send unsuccessful applicants a notification within 15 calendar days of the
                  Agency’s selection decision.16 Further, according to NCER’s EMS as well as a
                  summary document NCER provided to us describing its STAR grant award
16
  NCER’s STAR grant award process includes a programmatic review, which occurs after the peer review meeting
and before the decision meeting. The purpose of the programmatic review is to assure an integrated research
portfolio for the Agency and help determine which applications to recommend for award. As a result, we did not
consider the programmatic review to be a selection decision point. Therefore, the next selection decision point after
the peer review does not occur until the decision meeting, where decisions are made based on the results of the peer
and programmatic review. 


12-P-0864                                                                                                          25
            process, NCER sends declination letters, along with notifications to those who
            passed peer review, to applicants within 15 days of the peer review.

            For this RFA, NCER sent declination and notice of award letters after the final
            selection meeting within the time specified in the Agency’s policy and guidance.
            However, NCER did not communicate the results of the peer review in a timely
            manner. NCER’s letters communicating peer review results were not sent to
            applicants within 15 days of either the December 2009 or June 2010 peer review
            selection decisions. The letters sent after the December 2009 peer review were
            5 days past the time requirement, and the letters sent after the June 2010 peer
            review were 8 days past the time requirement. However, we did not identify any
            impacts as a result of NCER not complying with Agency policy and guidance.

Process for Communicating with Grant Applicants Not Well Defined
by Agency Policy and Guidance

            NCER lacks sufficient guidance or procedures to formalize lines of accountability
            for communicating with applicants during its review process. As a result, staff
            were unsure who was responsible for organizing, preparing, signing, maintaining,
            and sending notifications after the peer review and programmatic review. For
            instance, personnel were unsure what notifications were sent to applicants during
            the review process for this RFA. Specifically, the PRD Director, the director of
            the division responsible for sending notifications to applicants after peer review,
            told the project officer that formal letters were not sent to applicants after the
            December 2009 peer review when in fact they were. E-mails between NCER staff
            also showed that staff were unsure about who was responsible for notifying
            applicants and how applicants who passed the December 2009 peer review but did
            not pass the June 2010 peer review should have been informed. Further, NCER
            staff were unsure who was responsible for maintaining the records for those
            applicants who did not pass the eligibility step per Section III of the RFA.

            NCER does not have sufficient management controls to ensure that its
            communications with grant applicants are transparent and accurate and adhere to
            Agency policy and guidance. In particular, NCER lacks an effective process for
            staff to track and monitor communications with grant applicants during the review
            process. As a result, some of the formal notifications sent to grant applicants for
            this RFA did not contain required information or were not sent in a timely
            manner. Some of NCER’s informal communications provided applicants with
            incomplete information regarding the status and results of the review. Further,
            NCER did not maintain records of the number of applications who did not pass
            the eligibility review for this RFA and the notifications that NCER sent to these
            applicants.




12-P-0864                                                                                    26
Conclusions
            Improved guidance and management controls are needed to ensure that NCER
            effectively and appropriately communicates with grant applicants during its
            STAR grants competition process. The management control weaknesses we
            identified regarding NCER’s communications with applicants also have the
            potential to damage the reputation of the STAR grant program. For example, the
            lack of transparency that NCER exhibited in its communications for this RFA
            prompted one grant applicant to call into question the integrity of the entire
            review process. Effective and appropriate communications with applicants can
            serve to avoid such perceptions while adding to the credibility of the STAR grant
            program’s process and its funding decisions.

Recommendation

            We recommend that the Assistant Administrator for Research and Development:

               5. 	 Ensure that NCER establishes written procedures for communicating with
                    STAR grant applicants. Such procedures should include:

                       a.	 A process for staff to effectively track and monitor
                           communications with applicants.
                       b.	 Guidance for ensuring that appropriate information is included in
                           notifications to applicants.
                       c.	 Descriptions of roles and responsibilities of the various NCER
                           divisions and personnel involved in communications with
                           applicants. In particular, the roles and responsibilities of the SRA
                           and project officer should be clearly defined.
                       d.	 Annual reviews of the adequacy of internal controls over its
                           communications with applicants.

Agency Comments and OIG Evaluation
            The Agency generally agreed with our conclusion that improved management
            controls are needed to ensure that NCER effectively and appropriately
            communicates with grant applicants during its STAR grants competition process.
            However, the Agency believed that we had mischaracterized the “Past
            Performance and Reporting History” it receives from applicants and the potential
            effects of not having the most up-to-date history. The Agency also believed that
            we had misinterpreted a statement from an EPA staff member and did not reflect
            the individual’s correct title. Further, the Agency stated that one chapter 3 section
            heading could be taken out of context. We reviewed our characterization of the
            past performance and reporting history and clarified the statements in this section
            of the report to avoid confusion with the initial STAR grants eligibility
            determinations. We do not agree that we have misinterpreted a statement from the
            Acting Director of the Applied Science Division, but we have revised the report to


12-P-0864                                                                                     27
            reflect his correct title. Finally, we revised the section heading in question to
            clarify that our findings are specific to RFA EPA-G2009-STAR-F1.

            The Agency generally agreed with recommendations 5b and 5d (numbered as 3b
            and 3d in the draft report). For recommendation 5a (3a in the draft report), the
            Agency provided a suggested alternative recommendation to provide staff training
            to ensure staff are aware of operational procedures and their roles and
            responsibilities. However, we believe that the OIG recommendation, as written, is
            appropriate and necessary to address a basic management control weakness in
            ORD’s communications with grant applicants. Once the communications policy is
            established, a training program may be appropriate for ensuring that the policy is
            understood and followed. However, we do not believe that staff development and
            training substitutes for the establishment of a process of tracking and monitoring
            communications with grant applicants. The Agency believed that the
            recommended actions in recommendation 5c (3c in the draft report) were no
            longer necessary due to its suggested recommendation for recommendations 2a,
            2b, and 5a. However, in light of our decision not to accept this suggested
            alternative recommendation, we continue to believe that recommendation 5c is
            appropriate.

            All recommendations in chapter 3 are considered unresolved until such time as
            the OIG and EPA reach agreement on required actions and planned completion
            dates. In its 90-day response to the final report, EPA should provide a description
            of the Agency’s planned corrective actions, as well as the estimated or actual
            milestone completion dates for each action. The Agency’s written comments and
            OIG’s response are in appendix E.




12-P-0864                                                                                       28
                                          Status of Recommendations and
                                            Potential Monetary Benefits
                                                                                                                                          POTENTIAL MONETARY
                                                               RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                              Planned
             Rec.     Page                                                                                                   Completion   Claimed    Agreed-To
             No.       No.                           Subject                             Status1      Action Official           Date      Amount      Amount

               1       16    Take steps to make EPA’s decision to issue a class            U       Assistant Administrator
                             exception from 40 C.F.R 40.150 for its STAR grants                      for Research and
                             program known to the public through NCER’s website.                        Development

               2       16    Direct NCER to develop and/or update written                  U       Assistant Administrator
                             procedures so that the review template is consistent                    for Research and
                             with evaluation criteria published in the STAR Grant                       Development
                             RFA prior to releasing the review forms to panelists.

               3       17    Direct NCER to establish written procedures for                       Assistant Administrator
                             administering the STAR grant review process. Such                       for Research and
                             procedures should include:                                                 Development
                                a. A description of management controls needed to          U
                                   ensure applicable regulations and policies are
                                   adhered to, and how such controls will be
                                   implemented.
                                b. Descriptions of roles and responsibilities of the       U
                                   various NCER divisions and personnel involved
                                   in the STAR grant review process. In particular,
                                   the roles and responsibilities of the SRA and
                                   project officer should be clearly defined. 
                                c. A clearly defined firewall policy, including how it     U
                                   will be implemented and practiced.

               4       17     Direct NCER to develop and/or update written                         Assistant Administrator
                              procedures that provide guidance on voiding peer                       for Research and
                              reviews or conducting re-reviews for STAR grant                           Development
                              competitions, including:
                                a. How to appropriately evaluate and document              U
                                   the need for a re-review.
                                b. Descriptions of how and when to involve                 U
                                   parties within and outside of NCER.
                                c. Appropriate timelines for each step.                    U

               5       27    Ensure that NCER establishes written procedures for                   Assistant Administrator
                             communicating with STAR grant applicants. Such                          for Research and
                             procedures should include:                                                 Development

                                a. A process for staff to effectively track and            U
                                   monitor communications with applicants.
                                b. Guidance for ensuring that appropriate                  U
                                   information is included in notifications to
                                   applicants.
                                c. Descriptions of roles and responsibilities of the       U
                                   various NCER divisions and personnel involved
                                   in communications with applicants. In particular,
                                   the roles and responsibilities of the SRA and
                                   project officer should be clearly defined.
                                d. Annual reviews of the adequacy of internal              U
                                   controls over its communications with
                                   applicants.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress



12-P-0864                                                                                                                                           29
                                                                                                         Appendix A

       Key Positions With Oversight Responsibilities and
         Accountability for RFA EPA-G2009-STAR-F1
  Stage of
   review        Position                Summary of responsibilities for RFA EPA-G2009-STAR-F1
  process
                               Responds to eligibility questions related to Section III of the RFA from applicants while
  Eligibility    Eligibility
                               the RFA is open. An eligibility screen is performed at the close of the RFA to determine
  Review         Contact
                               which applications are eligible for award consideration.
                               The PRD Director and staff are in charge of the front-end processing of grant
                               applications, soliciting suggestions for and managing peer review panels, compiling and
                   PRD         forwarding peer review results to the project officer, and sending declination letters to
                  Director     applicants that do not pass NCER's review process. The PRD Director also assigns a
                               SRA to each RFA.
                               Selects peer review panel members, ensures execution of contracts to obtain reviewer
                               services, monitors for potential conflicts of interest, assigns applications to reviewers,
                               works with PRD's Contractor Monitor to send all necessary materials to reviewers,
External Peer                  schedules the peer review meetings, leads and conducts peer review meetings, and
                   SRA
   Review                      collects and finalizes scores from peer review meetings. Also responsible for providing
                               the results of the peer review to the PRD Director and project officers, working with
                               PRD's Contractor Monitor to send declination packages to applicants who did not pass
                               the peer review or programmatic review, and provide debriefings to applicants when
                               requested.
                  PRD          Oversees NCER contractors. The NCER contractors receive and record the applications
                Contractor     after the RFA closes, provide the application abstracts and applications to the SRA, and
                 Monitor       prepare and send notifications (i.e., declination and review status letters) to applicants
                               regarding the results of the peer review, on behalf of the SRA or project officer.
                               Sets the RFA budget and selects a project officer for each RFA. After the RFA is written,
                               the ASD Director is the first person to review and approve the solicitation. After the
                   ASD         programmatic review, the ASD Director reviews and approves the decision memo and
                  Director     helps to identify whether selected projects relate to EPA's programmatic needs. The ASD
                               Director also attends a decision meeting with Division Directors, NCER Director,
Programmatic                   appropriate project officer and SRA, and NCER’s Senior Science Advisor.
   Review                      Reviews and comments on the RFA prior to publication, responds to technical questions
                               from applicants while the RFA is open, observes the peer review panel, collects past
                  Project      performance and reporting history information from Principal Investigators, organizes and
                  Officer      leads the programmatic review, writes a decision memorandum that identifies the
                               applications recommended for funding, communicates with applicants after the peer
                               review and while final funding decisions are being processed.
                               Makes final funding decisions. Recommendations for funding are provided to the NCER
Final Funding     NCER
                               Director in a decision document and discussed with staff during a decision meeting. The
   Decision       Director
                               NCER Director makes final decisions shortly after the decision meeting.
                   Senior      Advises the NCER Director and the Division Directors on the strategic direction of the
                  Science      extramural research at ORD. Reviews all of the RFA drafts before they are sent to the
                  Advisor      Grants Office, and all funding recommendations after applications have gone through the
                               programmatic review.
                               Reviews RFAs to ensure they follow applicable regulations and policies. Point of contact
    Other                      for legal and administrative issues related to NCER grant competitions, developing
                   EMS
                               internal guidance, and serves as the liaison with the servicing officers, such as OGD.
                               Point of contact for implementing EPA Order 5700.5A1. The GCA must also review and
                   GCA         concur with the RFA before it can be published. Conflicts of interest should be addressed
                               in consultation with the GCA and/or OGC attorneys.
Source: OIG developed summary of roles and responsibilities from information provided by EPA managers and staff.




  12-P-0864                                                                                                            30
                                                                                     Appendix B

       Timeline of Events for Activities That Occurred
              During RFA EPA-G2009-STAR-F1
Date                 Activity/event
May 18, 2009         RFA opening date
August 17, 2009      RFA closing date
December 1–2, 2009   First peer review meeting (December 2009 peer review)
                            Number of applications reviewed: 72
                            Results: 11 applications passed
December 9, 2010     PRD contractor requests past performance and reporting history from
                     applicants that passed the December 2009 peer review
December 22, 2009    PRD contractor sends declination letters to applicants who did not pass the
                     December 2009 peer review.
January 20, 2010     Date of programmatic review
                            Number of Applications Reviewed: 11
                            Results: 9 applications passed
February 8, 2010     Scheduled decision meeting to discuss decision memo. The meeting did not
                     happen due to the snow days.
February 16, 2010    Re-scheduled decision meeting—confirmation of this meeting cannot be
                     determined.
February 16, 2010    Director discussed the peer review issue with the ASD Director (based on
                     director’s recollection of events; no corroborating documentation available).
February 16, 2010    Project officer informed that peer review will be redone or "supplemented"
                     with panelists of more varied expertise. Project officer asked to provide
                     detailed list of panelist nominations.
February 16, 2010    Director held discussions with the PRD Director and the EMS (based on
                     director’s recollection of events; no corroborating documentation available).
February 17, 2010    Project officer provided list of peer reviewer suggestions to ASD Director.
February 18, 2010    EMS e-mailed PRD Director about conducting a second peer review and
                     expressed concerns about the planned approach that was explained to him
                     by ASD Director.
February 19, 2010    PRD Director responded to e-mail from EMS to clarify the approach
                     discussed with and approved by the NCER Director.
February 23, 2010    Project officer provided list of peer reviewer suggestions to PRD.
March 4, 2010        Meeting scheduled with NCER Director, PRD Director, EMS, and SRA to
                     discuss possibility of another peer review—confirmation of this meeting
                     cannot be determined.
March 4, 2010        On March 4, or shortly after, the NCER Director decided to conduct second
                     peer review.
March 16, 2010       Project officer told to expect peer review results from second review on
                     May 19.
March 29, 2010       PRD Director informs SRA that she will forward prospective reviewers to the
                     Senior Science Advisor.
April 12, 2010       PRD Director tells project officer that PRD is working very hard to get final
                     scores by May 19.



12-P-0864                                                                                        31
Date                         Activity/event
April 13, 2010               PRD Director requests approval from NCER Director that approach for
                             selecting mail reviewers is acceptable.
April 14–May 27, 2010        Peer reviewers for second peer review were selected and contacted.
May–June 2010                Second peer review conducted (June 2010 peer review).
June 9, 2010                 Final peer review results from June 2010 peer review determined
                                    Number of applications reviewed: 72
                                    Results: 34 applications passed
June 15, 2010                PRD contractor requests past performance history information from
                             applicants that passed the June 2010 peer review.
June 28, 2010                Programmatic review meeting
                                   Number of applications reviewed: 34
                                   Results: 8 applications passed
June 30, 2010                PRD contractor sends declination letters to applicants that did not pass the
                             June 2010 peer review.
August 18, 2010              Final decision meeting
                                   Results: 8 proposals recommended for funding
                                   NCER Director concurred with recommendations
August 26, 2010              Date of supplemental memo containing final recommendations for funding.
August 27, 2010              NCER Director signed supplemental memo containing final recommendations
                             for funding.
August 30 and                Project officer sends official memos to applicants that were selected for
September 1, 2010            awards.
September 8, 2010            PRD contractor sends declination letters to applicants that did not pass the
                             second programmatic review.
January–August 2011          EPA disburses funds for all eight projects (total of $4,196,385 disbursed).
Source: OIG developed timeline from documentation, e-mails, and descriptions provided by EPA managers and staff.




12-P-0864                                                                                                     32
                                                                                    Appendix C

                   Detailed Scope and Methodology
Based on a request from the EPA Assistant Administrator for Research and Development, we
sought to determine the factual basis of concerns raised in a grant applicant’s August 2010 letter
about NCER’s management of the review process for RFA EPA-G2009-STAR-F1. The concerns
were primarily related to the reasons behind NCER's decision to void the results of its technical
peer review of applications and a lack of timely, transparent communication on the part of
NCER. Therefore, our primary objectives were to determine whether ORD (1) followed
applicable federal and EPA policies and procedures in managing the technical peer review panel
process for proposals submitted, and (2) communicated with grant applicants in an accurate,
timely, appropriate, and transparent manner regarding the status of their proposals.

To independently confirm our understanding of the issues raised regarding ORD’s review and
management of grant proposals under RFA EPA-G2009-STAR-F1, we:

       Interviewed the concerned grant applicant as well as the other applicant who passed the
        December 2009 peer review but not the June 2010 peer review
       Reviewed documentation of all correspondence between the concerned grant applicant
        and NCER
       Interviewed key NCER personnel, including the NCER Director, NCER EMS, PRD
        Director, SRA, and project officer
       Developed a timeline of events relating to RFA EPA-G2009-STAR-F1 between May
        2009 and September 2010

To determine whether ORD followed all applicable policies, procedures, and guidance during its
review of proposals under RFA EPA-G2009-STAR-F1 and its subsequent communications with
applicants, we obtained and reviewed data and information related to our two objectives, including:

       Applicable EPA, OMB, and other federal policies, procedures, and guidance, including:
           o	 40 C.F.R Part 30 (Uniform Administrative Requirements for Grants and
               Agreements with Institutions of Higher Education, Hospitals, and Other Non-
               Profit Organizations)
           o	 40 C.F.R Part 31 (Uniform Administrative Requirements for Grants and
               Cooperative Agreements to State and Local Governments)
           o	 40 C.F.R Part 40 (Research and Demonstration Grants)
           o	 OMB Circular A-21 (Cost Principles for Educational Institutions)
           o	 OMB Circular A-110 (Uniform Administrative Requirements for Grants and
               Other Agreements with Institutions of Higher Education, Hospitals and Other
               Non-Profit Organizations)
           o	 OMB Circular A-122 (Cost Principles for Non-Profit Organizations)
           o	 EPA Order 5700.5A1, Policy for Competition of Assistance Agreements
           o	 EPA Order 3120.5, Addressing Research Misconduct
           o	 EPA NCER Peer Review Division Policies and Procedures
           o	 RFA EPA-G2009-STAR-F1 (Advancing Public Health Protection through Water
               Infrastructure Sustainability)


12-P-0864                                                                                      33
         EPA websites and other sources of criteria, including:
             o EPA grants website on the EPA Intranet
             o EPA Principles of Scientific Integrity
             o Memo from EPA Administrator on Scientific Integrity
             o Memo from EPA Administrator on Transparency in EPA’s Operations
             o EPA Competition Guidance for Office of the Administrator Project Officers
         STAR grant budget and expense data for RFA EPA-G2009-STAR-F1
         Other STAR grant financial documents related to RFA EPA-G2009-STAR-F1
         Other documentation specific to RFA EPA-G2009-STAR-F1
         Correspondence between ORD and STAR grant applicants for RFA EPA-G2009-STAR-F1

We also interviewed:

         Key NCER management personnel, including:
             o NCER Director
             o NCER Assistant Deputy Center Director
             o NCER Senior Science Advisor
             o NCER PRD Director
             o Former NCER ASD Director
             o NCER Extramural Management Specialist

         Selected other NCER staff, including:

             o Project Officer
             o Science Review Administrator
             o A Program Analyst within NCER’s PRD 

         The EPA Senior Associate Director for Grants Competition.


 To assess whether EPA complied with applicable federal and EPA policies and procedures in 

 managing the technical peer review panel process for proposals submitted (Objective #1), we: 


         Reviewed ORD internal documentation of processes followed before, during, and after
          NCER’s decision to void the December 2009 peer review
         Examined internal ORD e-mails to assess whether any mismanagement, misconduct, or
          fraudulent activity occurred
         Reviewed peer reviewer biographies and written evaluation comments17
         Interviewed four peer reviewers for RFA EPA-G2009-STAR-F1
         Interviewed EPA and NCER personnel to corroborate and examine further NCER’s
          management of the review process for RFA EPA-G2009-STAR-F1 and its decision to
          void the December 2009 peer review

 To assess whether ORD communicated with grant applicants in an accurate, timely, appropriate,
 and transparent manner regarding the status of their proposals (Objective #2), we:

 17
   We reviewed all peer reviewer written comments for a random sample of 41 Individual Evaluation forms to
 determine whether the reviewers addressed each of the six RFA evaluation criteria. A random sample of
 41 applications (out of 72 total applications) provided a 95% confidence level at +/- 10 error. EPA guidance requires
 that all peer reviewers' written comments address the RFA criteria. Therefore, our random sample allowed us to
 determine whether the evaluation criteria was met. 


 12-P-0864                                                                                                         34
        Reviewed documentation of communications between ORD and grant applicants
        Examined internal ORD e-mail exchanges during the review process
        Interviewed a judgmental sample of grant applicants for RFA EPA-G2009-STAR-F1
        Interviewed key NCER personnel responsible for various aspect of communicating with
         grant applicants

Review of Management (Internal) Controls

Generally accepted government auditing standards require that auditors obtain an understanding
of internal controls significant to the audit objectives and consider whether specific internal
control procedures have been properly designed and placed in operation. We examined
management and internal controls as they related to our objectives. We reviewed the federal
regulations and guidance related to research and demonstration grants, and focused on EPA’s
adherence to, and implementation of, those regulations and guidance. We tested whether EPA’s
internal policies and procedures were applied properly during its review of grant applications
under RFA EPA-G2009-STAR-F1, and how they were applied. In general, we examined whether
management controls were effective through document review and analysis, corroborated with
testimonial evidence. In cases where documentation was lacking, we reviewed procedures to
determine whether design or implementation problems existed. The recommendations in our
report reflect alternative actions or additional steps that could be taken to improve the
management control weaknesses we found.

Prior Reports

Prior reports by EPA OIG, the U.S. Government Accountability Office, and NRC were
applicable to this evaluation. The reports listed below, in particular, provided the team with
additional insight into the NCER STAR grant program and important criteria to consider when
NCER’s management of the review process for RFA EPA-G2009-STAR-F1:

        EPA OIG Evaluation Report No. 2003-P-00019, Science to Achieve Results (STAR)
         Fellowship Program Needs to Place Emphasis on Measuring Results, September 30, 2003
        EPA OIG Evaluation Report No. 09-P-0147, EPA Can Improve Its Process for
         Establishing Peer Review Panels, April 29, 2009
        EPA OIG Audit Report No. 11-P-0386, Office of Research and Development Should
         Increase Awareness of Scientific Integrity Policies, July 22, 201118
        U.S. Government Accountability Office: Environmental Protection: Information on EPA
         Project Grants and Use of Waiver Authority (2001)
        NRC: The Measure of STAR: Review of the U. S. Environmental Protection Agency's
         Science to Achieve Results (STAR) Research Grants Program (2003)



18
  Our evaluation team met with members of the OIG Office of Audit Risk Assessment and Program Performance
team prior to their completion of this report. The Office of Audit team had interviewed ORD/NCER staff and
conducted a survey regarding scientific integrity and research misconduct at EPA. The information collected by
OIG’s Office of Audit was relevant to our evaluation of NCER’s management of RFA EPA-G2009-STAR-F1. 


12-P-0864                                                                                                        35
                                                                                                       Appendix D

                       Evaluation Criteria and Peer Reviewer
                              Written Comments
Table D-1 demonstrates the differences in the RFA evaluation criteria and those listed on the
Individual Evaluation form.

Table D-1: Two sets of evaluation criteria provided to peer reviewers
                                                         Five evaluation criteria listed on the “Individual
 Six evaluation criteria specified in the RFA            Evaluation” form provided to peer reviewers
     1) Identification of links between public           1) Research Plan and Quality Assurance
        health protection and improved water                Statement
        infrastructure sustainability
     2) Definition of Success and Measurement            2) Investigators
        of Progress
     3)   Investigators                                  3) Responsiveness
     4)   Responsiveness                                 4) Facilities/Equipment
     5)   Facilities and equipment                       5) Budget
     6)   Budget
Source: OIG analysis of RFA evaluation criteria from Section V of RFA EPA-G2009-STAR-F1, and the
peer reviewer comment forms for RFA EPA-G2009-STAR-F1 provided to OIG by NCER.

We reviewed all written comments provided on a random sample of 41 Individual Evaluation
forms to determine whether the reviewers had still addressed the RFA criteria despite the form
and RFA criteria not aligning. For the December 2009 peer review, all three reviewers for about
32 percent (+/- 16 percent with a 95 percent confidence interval)19 of the applications addressed
all of the evaluation criteria identified in the RFA in their written comments. For the June 2010
peer review, all three reviewers for about 17 percent (+/- 16 percent with a 95 percent
confidence) of the applications addressed all of the evaluation criteria in the RFA.

The criteria that were most often left unaddressed by the reviewers in their written comments
were criteria 1 and 2 in the RFA (i.e., items number 1 and 2 listed in left column of table D-1).
For over 90 percent of the applications (for both peer reviews), all three reviewers for each
application provided written comments addressing criteria 3, 4, 5, and 6 in the RFA (i.e., items
number 3–6 listed in left column of table D-1). However, for criteria 1 and 2 in the RFA
(i.e., items number 1 and 2 listed in left column of table D-1), which are not identified with
corresponding headers on the Individual Evaluation form, from 37 to 71 percent of the
applications we sampled did not have all three reviewers provide written comments addressing
those evaluation criteria listed in the RFA. See tables D-2 and D-3 for additional details.

19
  Our sample of 41 applications provided us with a 95% confidence level with an error of +/- 10. To draw general
conclusions regarding how often all 3 reviewers addressed all 6 criteria (i.e., for all 72 applications), we used
interval estimation procedures for sample proportions. Based on our calculations using a Student t test, the final error
rate was +/- 16%. Therefore, the findings for the December 2009 and June 2010 peer reviews (32 and 17 percent,
respectively) are +/- 16% error. 


12-P-0864                                                                                                           36
Table D-2: Number of reviewers addressing each RFA criteria for the December 2009 peer review
of applications submitted for RFA EPA-G2009-STAR-F1a
                                       December 2009 Peer Review
    No. of           RFA            RFA         RFA         RFA                    RFA             RFA
    reviewers        Criteria #1    Criteria #2 Criteria #3 Criteria #4            Criteria #5     Criteria #6
    who
    addressed
    RFA criteria
    Three of three   17 of 41       26 of 41       38 of 41        40 of 41        39 of 41        40 of 41
    reviewers        (41.5%)        (63.4%)        (92.7%)         (97.6%)         (95.1%)         (97.6%)
    Two of three     13 of 41       11 of 41       3 of 41         1 of 41         2 of 41         1 of 41
    reviewers        (31.7%)        (26.8%)        (7.3%)          (2.4%)          (4.9%)          (2.4%)
    One of three     10 of 41       3 of 41        0 of 41         0 of 41         0 of 41         0 of 41
    reviewers        (24.4%)        (7.3%)         (0.0%)          (0.0%)          (0.0%)          (0.0%)
    Zero of three    1 of 41        1 of 41        0 of 41         0 of 41         0 of 41         0 of 41
    reviewers        (2.4%)         (2.4%)         (0.0%)          (0.0%)          (0.0%)          (0.0%)
a
 In the sample of 41 applications we analyzed, there were only 13 applications (31.7%) reviewed during the
December 2009 peer review where all 3 assigned reviewers addressed all 6 RFA evaluation criteria, and thus,
adhered to guidance.
Source: OIG analysis of RFA evaluation criteria from Section V of RFA EPA-G2009-STAR-F1, and the peer reviewer
comment forms for RFA EPA-G2009-STAR-F1 provided to OIG by NCER.



Table D-3: Number of reviewers addressing each RFA criteria for the June 2010 peer review of
applications submitted for RFA EPA-G2009-STAR-F1 a
                                           June 2010 Peer Review
    Number of
    reviewers
    who
    addressed        RFA            RFA             RFA            RFA             RFA             RFA
    RFA criteria     Criteria #1    Criteria #2     Criteria #3    Criteria #4     Criteria #5     Criteria #6
    Three of three   12 of 41       18 of 41        41 of 41       41 of 41        40 of 41        41 of 41
    reviewers        (29.3%)        (43.9%)         (100%)         (100%)          (97.6%)         (100%)
    Two of three     21 of 41       18 of 41        0 of 41        0 of 41         1 of 41         0 of 41
    reviewers        (51.2%)        (43.9%)         (0.0%)         (0.0%)          (2.4%)          (0.0%)
    One of three     5 of 41        3 of 41         0 of 41        0 of 41         0 of 41         0 of 41
    reviewers        (12.2%)        (7.3%)          (0.0%)         (0.0%)          (0.0%)          (0.0%)
    Zero of three    3 of 41        2 of 41         0 of 41        0 of 41         0 of 41         0 of 41
    reviewers        (7.3%)         (4.9%)          (0.0%)         (0.0%)          (0.0%)          (0.0%)
a
 In the sample of 41 applications we analyzed, there were only 7 applications (17.1%) reviewed during the June 2010
peer review where all 3 assigned reviewers addressed all 6 RFA Evaluation Criteria, and thus, adhered to guidance.
Source: OIG analysis of RFA evaluation criteria from Section V of RFA EPA-G2009-STAR-F1, and the peer reviewer
comment forms for RFA EPA-G2009-STAR-F1 provided to OIG by NCER.




12-P-0864                                                                                                        37
                                                                                 Appendix E


                 Agency Comments to Draft Report
                       and OIG Response

                                        July 16, 2012

MEMORANDUM

 SUBJECT: Office of Research and Development's (ORD) Response to the Office 

          of Inspector General's (OIG) Draft Report dated June 13, 2012, "EPA 's 

          Review of Applications for Water Infrastructure Sustainability Grant 

          Exhibited Lack of Management Controls and Transparency" (Report No. 

          OPE-FY11-008)


 FROM: 	       Lek G. Kadeli
               Acting Assistant Administrator
               Office of Research and Development

 TO: 	         Arthur A. Elkins, Jr.

               Inspector General


 Thank you for the opportunity to review and comment on OIG's draft report "EPA 's 

 Review of Applications for Water Infrastructure Sustainability Grant Exhibited Lack of 

 Management Controls and Transparency," (Report Number OPE-FY11-008). I 

 appreciate the OIG's acknowledgement that "no evidence of fraud or intentional 

 manipulation of the application review process" was found and the efforts in conducting 

 this review requested by the previous ORD Assistant Administrator. In response to the 

 draft report, ORD offers the following general and specific comments.


 General Comments

 ORD's National Center for Environmental Research (NCER) has successfully 

 administered a competitive grants program since its formation in 1995. NCER manages 

 a number of programs, only one of which is the Science To Achieve Results (STAR) 

 program, for which numerous research solicitations are managed annually. As noted in 

 the draft report, the 2003 review of the STAR program conducted by the National 

 Academy of Science acknowledged the rigorous peer review process NCER has 

 established, concluding that it "in many ways exceeds those in place at other 

 organizations that have extramural research programs."


 Since 1995, there have been two instances where a peer review was redone because
 the panel was determined to have an inappropriate mix of expertise, the results
 negated, and a new panel convened (i.e., a re-review). In the first instance, there-


12-P-0864                                                                                    38
 review decision was made quickly and there-review managed efficiently. The
 second instance resulted in the request for this OIG review. In both cases, ORD was
 embarking on new science, thus, there were challenges in fully understanding the
 diverse expertise needed for the panel to appropriately evaluate applications. In both
 cases, the Director of NCER requested feedback from staff and based on that
 feedback, the review was redone.

 I believe that there is considerable agreement on what improvements are needed to ensure
 accuracy and consistency. However, there are several areas where clarification is needed.
 These areas are as follows:

 Specific Comments

 The draft report does not accurately describe NCER's STAR grant application review
 and selection processes. For example, the draft report states (chapter 1):

         "A decision meeting to formalize NCER’s funding recommendations. In the decision
         meeting, the NCER Director makes final funding decisions based on the results of
         the external peer review and internal programmatic review. "

 While the results of the external peer review and internal programmatic review are critical
 sources of information the NCER Director uses when making final funding
 recommendations, other information may be employed based on the terms of the RFA. The
 RFA specifically states, “...the NCER Director may also consider program balance and
 available funds." Program balance may take into account items of interest as identified in
 the RFA such as geographic diversity, diversity of research methods, or diversity of eligible
 awardee types.

  OIG Response 1: Chapter 1 of the draft report was revised to state that the NCER Director may
  also consider program balance and available funds in making final funding decisions.


 The draft report also states that (chapter 3):

         "The Agency's failure to request the applicants' updated information had the
        potential to impact the applicants' status in the review process because any changes
        in the applicants' history could have resulted in an NCER ruling -of ineligibility for
        the next stage of the review process. However, we did not identify such impacts for
        this particular RFA."

An applicant's "Past Performance and Reporting History'' provides information essential
to evaluating the potential performance success of an applicant. Performance success
includes the applicant's ability to complete the research and comply with reporting
requirements. However, NCER does not use "Past Performance and Reporting History'' in
making eligibility determinations.




12-P-0864                                                                                         39
  OIG Response 2: We agree that NCER does not use Past Performance and Reporting History in
  making eligibility determinations.

  What we intended to convey in the paragraph quoted above was that all applicants were not
  afforded an opportunity to submit Past Performance and Reporting History that was current to the
  point in time when NCER was evaluating applicants. This had the potential to impact how NCER
  evaluated applicants during programmatic review. For those applicants who passed the December
  2009 peer review, past performance and reporting history was collected in December 2009.
  However, after the June 2010 peer review was conducted, past performance and reporting history
  was collected only from applicants who had not passed the December 2009 peer review but
  passed the June 2010 peer review. Therefore, NCER was not considering “information essential to
  evaluating potential performance success of an applicant” that was current for all applicants. Any
  relevant performance or reporting information that had occurred during the 6-month period between
  December 2009 and June 2010 would not have been considered for those applicants who passed
  both the December 2009 and June 2010 peer reviews. We believe that all applicants should be
  treated equally in terms of the information they are being evaluated on, including past performance.

  We revised the report to clarify our statements, and have removed reference to eligibility
  considerations for this particular issue.




 Additionally, the draft report misinterpreted several statements attributed to EPA staff.
 First, the draft report states (chapter 2):

         "According to EPA's Senior Associate Director for Grants Competition, the
        regulation is intended to ensure that EPA funds research that is relevant to
        its needs and priorities."

 We would like to clarify that EPA's Senior Associate Director for Grants Competition was
 providing his own opinion of the intent of the regulation and not speaking to what the
 writers of the regulation had intended.

  OIG Response 3: We have revised the report to indicate that the Senior Associate Director for
  Grants Competition was providing his own opinion of the intent of the regulation.


 A second example states:

         "In addition, the NCER Assistant Deputy Director advised the project officer to hold
        off sending an e-mail explaining NCER 's decision to redo the peer review to an
        applicant that passed the December 2009 peer review but not the June 2010 peer
        review."

 NCER does not have an Assistant Deputy Director. If your intention was to refer to NCER's
 Assistant to the Deputy Director, we have already clarified that this individual did not
 provide this guidance nor make a statement to the OIG that may have been misconstrued to
 reflect this type of action on his part. If you have additional information on the source of
 this comment, it would be helpful if you would share it with us.



12-P-0864                                                                                                40
 OIG Response 4: The correct title for the individual we referred to in the draft report was the Acting
 Director for the Applied Science Division of NCER.

 We acknowledge that there may be differing interpretations of the guidance that the Acting Director
 provided to the project officer regarding communicating the reasons for changes in the review
 process with this applicant.

 In a June 29, 2010, e-mail, the project officer proposed a draft e-mail, five paragraphs in length, to
 one particular applicant whose application passed the December 2009 peer review but not the June
 2010 peer review. The project officer’s draft e-mail to the applicant included the following explanation
 of what occurred with the review of applications for RFA EPA-G2009-STAR-F1:

         The review of all 80 of the applications had to be reprocessed from the beginning
         even though we were nearing the awards decision point. After reviewing all of the
         documents, our senior management felt that the first round of Peer Review panelists
         were lacking in multiple aspects of diversity.

 The project officer then sent the draft e-mail to the Acting Director for the Applied Science Division,
 with the following request in her transmittal:

         How’s this? I’d like to go ahead and send her the PR comments from the first round
         at least.

 The “PR comments from the first round” referred to the peer review comments on the application
 from the December 2009 (voided) peer review, which the applicant had passed (this particular
 applicant, however, had not passed the June 2010 peer review).

 The Acting Director responded “Please hold off for now.”

 Subsequently, on July 2, 2010, the project officer sent an e-mail to the applicant that contained none
 of the aforementioned detail about what happened with the first peer review.

 In a July 15, 2010 e-mail, the SRA provided the applicant with the following explanation of the review
 process:

         After careful consideration of the panel make-up, it was determined that disciplines
         necessary to adequately review the applications were not included in the December [2009]
         panel. Therefore, the results of the December 2009 peer review were voided, and a second
         peer review was conducted that included experts from additional fields. As the first peer
         review was voided and not included in the decision-making process regarding these
         applications, the results from that peer review were not provided.

 During an interview with the project officer, we asked her if she was ever instructed not to be
 forthright with applicants about the decision to re-review applications for this RFA. She told us that
 she was generally under the impression that she was not to provide applicants with any information
 about the peer review.

 In a follow-up e-mail to OIG’s draft report, the ORD audit follow-up coordinator stated that the Acting
 Director’s guidance to the project officer to “please hold off for now,” was in reference to sending the
 applicant peer review comments.

 Because the applicant was ultimately provided with an explanation of changes to the review process,
 we have revised the report to remove reference to the Acting Director for the Applied Science
 Division’s guidance to the project officer as an example of NCER’s lack of transparency in
 communicating with applicants.



12-P-0864                                                                                                   41
 Finally, in chapter 3 of the draft report:

        "The NCER Senior Science Advisor told us that she evaluated the resumes of
        potential peer reviewers in consultation with managers in EPA's Office of Water and
        ORD 's Water Quality Research Program, and only made recommendations to the
        SRA about which reviewers might be good candidates for the SRA to contact for the
        June 2010 peer review. She told us that she did not make final approvals for reviewer
        selections. In contrast, the SRA and PRD [Peer Review Division] Director stated
        that all peer reviewer selections for the June 2010 peer review were reviewed and
        approved by NCER’s Senior Science Advisor. This was supported by e-mails from
        NCER personnel that stated that the NCER Senior Science Advisor was approving
        reviewer selections. Such involvement by NCER management in selecting and
        approving peer review panel members does not adhere to its firewall practice."

 In documentation previously provided to your staff, we believe the evidence provided does
 not support this statement included in your draft report. NCER's Senior Science Advisor did
 not review and approve peer reviewers. The email documentation provided to the OIG is
 between parties other than the Senior Science Advisor and is anecdotal regarding the role of
 the Senior Science Advisor.

  OIG Response 5: In light of NCER comments to the draft report and additional documentation
  provided during and after the exit conference, we revised our Chapter 2 subheading that “NCER Did
  Not Adhere to Its ‘Firewall’ Practice for RFA EPA-G2009-STAR-F1,” to reflect that NCER does not
  have a clearly defined firewall policy or practice to adhere to. Additionally, we revised the report to
  state that NCER personnel had different interpretations of their roles in vetting and selecting
  reviewers for the June 2010 peer review. However, in our view the Senior Science Advisor’s
  involvement in the June 2010 peer review process was not consistent with previously published
  descriptions of the firewall.

  Several sources indicated that NCER’s firewall calls for PRD, specifically the SRA, to make reviewer
  selections and assignments. However, the SRA and PRD Director told us that they did not make final
  reviewer selections for the June 2010 peer review, and that reviewers were approved by the Senior
  Science Advisor. We have included language in the report to reflect NCER management’s
  disagreement with this characterization. Further, in support of the Senior Science Advisor’s statement
  that she did not approve reviewers, we have included reference to an e-mail stating that she
  assessed the “suitability” of two prospective peer reviewers submitted to her by the SRA for the June
  2010 panel. However, we have also included reference to a number of other e-mails characterizing
  the Senior Science Advisor’s role in the June 2010 peer review process as someone that was
  involved in reviewing and approving peer reviewer selections. We also made it clear in the report that
  the Senior Science Advisor was copied on some of these e-mails, but that they were not addressed
  to her.


Another concern noted in the draft report is how NCER's firewall is characterized.
Chapter 2 states:

        "[ORD's National Center for Environmental Research (NCER)] employs a
        "firewall" to ensure an objective and impartial examination of applications, as
        required by EPA Order 5700.5A1. If used properly, NCER’s firewall shields the peer
        review process from influences or potential conflicts with EPA personnel outside of


12-P-0864                                                                                                   42
        PRD and ensures the independence of the review process. However, for this
        particular RFA, NCER did not adhere to its firewall practice, as numerous non-PRD
        staff influenced the selection of peer reviewers for the June 2010 peer review. In
        addition, non-PRD staff concerns about the December 2009 peer review influenced
        the manner in which the review process was conducted, thus indirectly influencing
        the results."

The purpose of NCER’s firewall is to ensure peer reviewers are free of undo influences. The
firewall ensures that internal Agency and external influences cannot compromise the peer
review process. NCER peer review staff is encouraged to solicit input from many sources
including project officers and other Agency experts to identify the best qualified scientific
expertise to serve in the peer review function. The selection of panelists is made by the PRD
staff. As part of this process PRD may use, or entirely discount, information provided by
others. NCER staff outside of PRD expressing an opinion regarding potential panelist
expertise does not violate the firewall or invalidate the independence of the process. This
process is consistent with established peer review practices and has been reviewed and
approved by the National Academies of Science (see ''The Measure of STAR", cited in the
draft report). However, the firewall is not intended to isolate the peer review staff from their
management or the Agencies scientific resources.

 OIG Response 6: We agree that NCER staff outside of PRD may provide input to PRD staff or
 managers regarding potential reviewers, and that such action does not compromise the
 independence of the process. We have clarified this in the final report.

 However, we would like to emphasize the point made in ORD’s comment that “the selection of
 panelists is made by the PRD staff.” We believe this to be a key aspect of the firewall and in
 ensuring the independence of the peer review process. This is highlighted by statements in
 Chapter 1 of our report:

         A key component of [the] firewall was its shielding of the peer review process
         from the influence of EPA project officers and staff who oversee the individual
         investigator, fellowship, and center awards.

 And again in Chapter 2 of our report:

         As noted in NCER’s draft PRD procedures and policies, as well as the 2003 NRC report,
         the SRA has sole responsibility for panel selection decisions. The SRA, the PRD Director,
         the NCER Director, and the former ASD Director all acknowledged that it is the SRA’s, or
         PRD’s, responsibility to make such decisions.


Chapter 2 concludes that NCER needs "improved management controls to ensure
independence and effectiveness of EPA’s STAR grants review process."

         "In general, NCER lacked sufficient procedures and management controls to ensure
        the independence of its STAR grants competition process. EPA Order 5700.5Al, the
        RFA, and the applicable regulations cited in the RFA were the only formal policy and
        procedures documents provided to OIG by NCER that governed its STAR grants
        award process. The other documents provided were either informal guidance
        (provided to NCER personnel via e-mail, existed in draft form, etc.), related to


12-P-0864                                                                                            43
       specific portions of the STAR grant review process (e.g., peer review) and not to the
       entire process, or did not include specific procedural steps for NCER staff None of
       the Agency's documents formalized NCER 's firewall practice, outlined procedures
       for substantiating concerns regarding peer review results, identified a process for re-
       evaluating applications, or specified how decisions to alter or change the typical
       review process should be documented."

ORD agrees that the development of overarching guidance for staff responsibilities,
communications, and training that reference existing policies, procedures, and guidance will
assist in the improvement of management controls. The OIG review highlights the need for
NCER staff to develop a better understanding of each others' role in grants management
processes, and an overarching guidance document will prove beneficial in that effort. ORD
also agrees that written procedures on re-reviews are needed to improve the evaluation and
documentation of a need for are-review, involvement of parties within and outside NCER,
appropriate timelines for each step, and to ensure that appropriate communications with
applicants are known and followed.

The draft report includes numerous headings that could be taken out of context and reported
as applying to all NCER-managed RFAs. For example, a chapter 2 heading states, NCER’s
Review Process Lacks Management Controls. While current controls are not specific as to
re-review processes, this heading implies that NCER lacks all management controls. The
OIG review request was limited to RFA EPA-G2009-STAR-Fl and findings are specific to
this RFA. In addition, a chapter 3 heading states, NCER Not Transparent in Communicating
its Review Process to Applicants. The RFA defines pertinent communications to applicants
including receipt of applications, outcome of the peer review, etc. The re-review
communications for this RFA were not as transparent; however, this heading implies that
NCER lacks transparency in all communications with applicants. Again, the OIG review
request was limited to RFA EPA-02009-STAR-Fl and findings are specific to this RFA.

  OIG Response 7: We agree with ORD regarding the report headings cited in the comment above,
  and have revised the report to more accurately convey the OIG findings for these particular
  sections of the report.


 I appreciate the analysis your office has provided in response to our request for this review.
 Because of some of the concerns addressed above, I have attached ORD’s response to the
 draft report recommendations. Please consider ORD's comments as the final report is
 prepared. As required by the EPA Order 2750, our written response to the final report will
 address any recommendations that may be included at that time.

 If you or your staff have any questions, please contact Deborah Heckman at (202) 564-
 7274.

 Attachment

 cc: 	Ramona Trovato, Principal Deputy Assistant Administrator, ORD
      Bob Kavlock, Deputy Assistant Administrator for Science, ORD


12-P-0864                                                                                       44
     Amy Battaglia, Director, OPARM, ORD
     Jim Johnson, Director, NCER, ORD
     Chris Zarba, Deputy Director, NCER, ORD
     Christiane Routt, Deputy Director, OPARM, ORD




12-P-0864                                            45
 Attachment I                                                 OIG's Draft Report
 EPA's Review of Applications for Water Infrastructure Sustainability Grant Exhibited Lack of Management Controls and Transparency
                                                 ORD Response to Recommendations
   RecNo.                             OIG Recommendation                                       Lead Responsibility                 ORD's Suggested Alternative Recommendation
            Take steps to make EPA's decision to issue a class exception from 40 C.F.R
                                                                                            Assistant Administrator for
      1     40.150 for its STAR grants program known to the public through NCER's                                       ORD generally agrees with this current recommendation.
                                                                                            Research and Development
            website.
            Direct NCER to establish written procedures for administering the STAR
            grant review process including a description of management controls needed      Assistant Administrator for
      2a
            to ensure applicable regulations and policies are adhered to, and how such      Research and Development
                                                                                                                        Direct NCER to develop operational procedures that provide
            controls will be implemented.
                                                                                                                        overarching NCER-wide guidance for staff responsibilities,
            Direct NCER to establish written procedures for administering the STAR
                                                                                                                        communications, and training which will also reference existing
            grant review process including descriptions of roles and responsibilities of
                                                                                            Assistant Administrator for policies, guidance, and standard operating procedures, as appropriate.
      2b    the various NCER divisions and personnel involved in the STAR grant
                                                                                            Research and Development
            review process. In particular, the roles and responsibilities of the SRA and
            project officer should be clearly defined.
            Direct NCER to establish written procedures for administering the STAR
            grant review process including a process, including timelines, for receiving    Assistant Administrator for
      2c
            and investigating internal and external complaints, as well as for making and   Research and Development
            documenting subsequent management decisions.                                                                Direct NCER to develop and/or update written procedures that provide
            Direct NCER to establish written procedures for administering the STAR                                      guidance on re-reviews including:
            grant review process including provisions to consult with EPA personnel         Assistant Administrator for a) how to appropriately evaluate and document the need for a re-review;
      2d
            who oversee EPA grant competitions in determining whether changes to the        Research and Development b) the need for the involvement of parties within and outside of NCER;
            review process are necessary.                                                                               c) appropriate timelines for each step, and;
            Direct NCER to establish written procedures for administering the STAR                                      d) appropriate communications with applicants are known and followed.
            grant review process including provisions to involve key NCER management        Assistant Administrator for
      2e
            personnel in decision meetings that stem from staff or management concerns      Research and Development
            about the review process.
            Direct NCER to establish written procedures for administering the STAR                                      Direct NCER to develop and/or update written procedures so that the
                                                                                            Assistant Administrator for
      2f    grant review process including a process for aligning peer reviewer                                         review template is consistent with what was published in the RFA prior
                                                                                            Research and Development
            evaluation comments with the RFA evaluation criteria.                                                       to releasing the review forms to panelists.
            Ensure that NCER establishes written procedures for communicating with                                      Direct NCER to develop training to ensure staff are aware of and
                                                                                            Assistant Administrator for
      3a    STAR grant applicants including a process for staff to effectively track and                                understand the operational procedures as well as their roles and
                                                                                            Research and Development
            monitor communications with applicants.                                                                     responsibilities in the review process.
            Ensure that NCER establishes written procedures for communicating with
                                                                                            Assistant Administrator for
      3b    STAR grant applicants including guidance for ensuring that appropriate                                      ORD generally agrees with this current recommendation.
                                                                                            Research and Development
            information is included in notifications to applicants.




12-P-0864
                                                                                                                                                                                    46
  RecNo.                              OIG Recommendation                                    Lead Responsibility                  ORD's Suggested Alternative Recommendation
            Ensure that NCER establishes written procedures for communicating with
            STAR grant applicants including descriptions of roles and responsibilities of
                                                                                          Assistant Administrator for We believe that this would be no longer applicable based on the
     3c     the various NCER divisions and personnel involved in communications with
                                                                                          Research and Development suggested alternative recommendation for 2a, 2b, and 3a.
            applicants. In particular, the roles and responsibilities of the SRA and
            Project Officer should be clearly defined.
            Ensure that NCER establishes written procedures for communicating with
                                                                                          Assistant Administrator for
     3d     STAR grant applicants including annual reviews of the adequacy of internal                                ORD generally agrees with this current recommendation.
                                                                                          Research and Development
            controls over its communications with applicants.




12-P-0864
                                                                                                                                                                                 47
OIG Response 8: Our responses to ORD’s alternative recommendations are included in the table below.



  Draft Report           OIG Recommendation from
                    ORD Suggested
                          OIG Evaluation of
                       Changes to Draft 

Recommendation                 Draft Report
                             Alternative 
                        ORD Response 
                              Report 

      No.                                                           Recommendation
                                                                  Recommendations

        1           Take steps to make EPA's decision to         ORD generally agrees        In its 90-day response to the report, EPA needs to    None
                    issue a class exception from 40 C.F.R        with this current           provide a description of the planned corrective
                    40.150 for its STAR grants program           recommendation.             actions and estimated or actual, milestone
                    known to the public through NCER's                                       completion dates. Recommendation 1 is
                    website.                                                                 designated as unresolved in the final report.
       2a           Direct NCER to establish written             Direct NCER to develop      We believe these particular OIG                       We have updated the
                    procedures for administering the STAR        operational procedures      recommendations are appropriate given the scope       final report’s
                    grant review process including a             that provide overarching    of our evaluation. Our findings are specific to the   recommendation to
                    description of management controls           NCER-wide guidance for      STAR Grant program. A recommendation to               include a call for NCER
                    needed to ensure applicable regulations      staff responsibilities,     develop overarching, NCER-wide operational            to develop a clearly
                    and policies are adhered to, and how         communications, and         guidance does not ensure that the specific issues     defined firewall policy.
                    such controls will be implemented.           training which will also    we found regarding the STAR grant review              The draft report
       2b           Direct NCER to establish written             reference existing          process and communication with STAR grant             recommendations 2a and
                    procedures for administering the STAR        policies, guidance, and     applicants will be addressed. NCER may choose         2b appear as
                    grant review process including               standard operating          to include the written procedures specified in        recommendations 3a and
                    descriptions of roles and responsibilities   procedures, as              recommendations as part of a larger, NCER-wide        3b in the final report, with
                    of the various NCER divisions and            appropriate.                set of procedures. We will evaluate any such          recommendation 3c
                    personnel involved in the STAR grant                                     actions included in ORD’s corrective action plan.     added to recommend a
                    review process. In particular, the roles                                 However, we believe the OIG recommendations           firewall policy.
                    and responsibilities of the SRA and                                      to be appropriate. Recommendations 3a, 3b, and
                    project officer should be clearly defined.                               3c in the final report are designated as
                                                                                             unresolved.
  Draft Report 
      OIG Recommendation from
                        ORD Suggested
                           OIG Evaluation of
                      Changes to Draft 

Recommendation
                Draft Report
                            Alternative 
                           ORD Response 
                                Report 

      No. 
                                                          Recommendation
                                                                  Recommendations

       2c        Direct NCER to establish written                Direct NCER to develop      As stated above, our findings are specific to the     ORD’s alternative
                 procedures for administering the STAR           and/or update written       STAR Grant program, and we believe the                recommendation was
                 grant review process including a                procedures that provide     recommendations should be worded as such.             inserted into the final
                 process, including timelines, for               guidance on re-reviews      Otherwise, we agree that ORD’s alternative            report as
                 receiving and investigating internal and        including:                  recommendation meets the intent of our original       recommendations 4a, 4b,
                 external complaints, as well as for             a) how to appropriately     recommendations, and have revised the report          and 4c (replacing
                 making and documenting subsequent                                           accordingly. This information is now reflected in     recommendations 2c, 2d,
                                                                 evaluate and document
                 management decisions.                                                       recommendations 4a, 4b, and 4c in the final           and 2e of the draft
                                                                 the need for a re-review;
       2d        Direct NCER to establish written                                            report. In its 90-day response to the report, EPA     report) with the
                 procedures for administering the STAR           b) the need for the         needs to provide estimated or actual milestone        clarification that the
                 grant review process including                  involvement of parties      completion dates for recommendations 4a, 4b,          alternative
                 provisions to consult with EPA                  within and outside of       and 4c. Recommendations 4a, 4b, and 4c are            recommendation is
                 personnel who oversee EPA grant                 NCER; c) appropriate        designated as unresolved in the final report          specific to the STAR
                 competitions in determining whether             timelines for each step,                                                          grant program.
                 changes to the review process are

12-P-0864
                                                                                                                                                                                  48
            necessary.                              and;

      2e    Direct NCER to establish written        d) appropriate 

            procedures for administering the STAR   communications with

            grant review process including          applicants are known

            provisions to involve key NCER          and followed.

            management personnel in decision
            meetings that stem from staff or
            management concerns about the
            review process.
      2f    Direct NCER to establish written        Direct NCER to develop     As stated above, our findings are specific to the     ORD’s alternative
            procedures for administering the STAR   and/or update written      STAR Grant program, and we believe the                recommendation was
            grant review process including a        procedures so that the     recommendations should be worded as such.             inserted into the final
            process for aligning peer reviewer      review template is         Otherwise, we agree that ORD’s alternative            report as
            evaluation comments with the RFA        consistent with what was   recommendation meets the intent of our original       recommendation 2
            evaluation criteria.                    published in the RFA       recommendations, and have revised the report          (replacing
                                                    prior to releasing the     accordingly. This information is now reflected in     recommendation 2f of
                                                    review forms to            recommendation 2 in the final report. In its 90-day   the draft report), with the
                                                                               response to the report, EPA needs to provide          clarification that it is
                                                    panelists.
                                                                               estimated or actual milestone completion dates for    specific to the STAR
                                                                               recommendation 2. Recommendation 2 in the             grant program.
                                                                               final report is designated as unresolved.




12-P-0864
                                                                                                                                                                   49
  Draft Report        OIG Recommendation from
                      ORD Suggested
                         OIG Evaluation of
                         Changes to Draft 

Recommendation              Draft Report
                             Alternative 
                         ORD Response 
                                  Report 

      No.                                                          Recommendation
                                                                   Recommendations

        3a       Ensure that NCER establishes written          Direct NCER to develop       We believe the OIG recommendation is                  Recommendations 3a,
                 procedures for communicating with             training to ensure staff     appropriate and necessary to address a basic          3b, 3c, and 3d of the
                 STAR grant applicants including a             are aware of and             management control weakness in ORD’s                  draft report appear in the
                 process for staff to effectively track and    understand the               communication with grant applicants. We do not        final report as
                 monitor communications with                   operational procedures       believe that staff development and training           recommendations 5a, 5b,
                 applicants.                                   as well as their roles and   substitutes for a process of tracking and             5c, and 5d. No other
                                                               responsibilities in the      monitoring communications with grant applicants.      changes were made to
                                                               review process.              This recommendation has been re-numbered and          these recommendations.
                                                                                            appears as recommendation 5a in the final report.
                                                                                            In its 90-day response to the report, EPA needs to
                                                                                            provide estimated or actual milestone completion
                                                                                            dates for recommendation 5a. Recommendation
                                                                                            5a is designated as unresolved in the final report.
      3b         Ensure that NCER establishes written          ORD generally agrees         In its 90-day response to the report, EPA needs to
                 procedures for communicating with             with this current            provide a description of the planned corrective
                 STAR grant applicants including               recommendation.              actions and estimated or actual, milestone
                 guidance for ensuring that appropriate                                     completion dates. Recommendation 5b is
                 information is included in notifications to                                designated as unresolved in the final report.
                 applicants.
      3c          Ensure that NCER establishes written         We believe that this         See OIG evaluation of ORD response for 2a, 2b,
                  procedures for communicating with            would be no longer           and 3a, above. Recommendation 5c is designated
                  STAR grant applicants including              applicable based on the      as unresolved in the final report.
                  descriptions of roles and                    suggested alternative
                  responsibilities of the various NCER         recommendation for 2a,
                  divisions and personnel involved in          2b, and 3a.
                  communications with applicants. In
                  particular, the roles and responsibilities
                  of the SRA and Project Officer should
                  be clearly defined.
      3d         Ensure that NCER establishes written          ORD generally agrees         In its 90-day response to the report, EPA needs to
                 procedures for communicating with             with this current            provide a description of the planned corrective
                 STAR grant applicants including annual        recommendation.              actions and estimated or actual, milestone
                 reviews of the adequacy of internal                                        completion dates. Recommendation 5d is
                 controls over its communications with                                      designated as unresolved in the final report.
                 applicants.




12-P-0864
                                                                                                                                                                               50
                                                                             Appendix F


                                   Distribution

Office of the Administrator
Assistant Administrator for Research and Development
Deputy Assistant Administrator for Management, Office of Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Research and Development




12-P-0864                                                                            51
